1a
APPENDIX A
RECOMMENDED FOR FULL-TEXT PUBLICATION
Pursuant to Sixth Circuit I.O.P. 32.1(b)

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
____________
WALID JAMMAL; KATHLEEN
TUERSLEY; CINDA J. DURACHINSKY;
NATHAN GARRETT,

Plaintiffs-Appellees,
v.
AMERICAN FAMILY INSURANCE
COMPANY; AMERICAN FAMILY
MUTUAL INSURANCE COMPANY;
AMERICAN FAMILY LIFE INSURANCE
COMPANY; AMERICAN STANDARD
INSURANCE COMPANY OF
WISCONSIN; AMERICAN FAMILY
TERMINATION BENEFITS PLAN;
RETIREMENT PLAN FOR EMPLOYEES
OF AMERICAN FAMILY INSURANCE
GROUP; AMERICAN FAMILY 401K
PLAN; GROUP LIFE PLAN; GROUP
HEALTH PLAN; GROUP DENTAL PLAN;
LONG TERM DISABILITY PLAN;
AMERICAN FAMILY INSURANCE
GROUP MASTER RETIREMENT TRUST;
401K PLAN ADMINISTRATIVE
COMMITTEE; COMMITTEE OF
EMPLOYEES AND DISTRICT MANAGER
RETIREMENT PLAN,

Defendants-Appellants.

No. 17-4125

2a
Appeal from the United States District Court
for the Northern District of Ohio at Cleveland.
No. 1:13-cv-00437—Donald C. Nugent, District Judge.
Argued: July 31, 2018
Decided and Filed: January 29, 2019
Before: BOGGS, CLAY, and ROGERS, Circuit Judges.
COUNSEL
ARGUED: Pierre H. Bergeron, SQUIRE PATTON
BOGGS (US) LLP, Cincinnati, Ohio, for Appellants.
Charles J. Crueger, CRUGER DICKINSON LLC,
Whitefish Bay, Wisconsin, for Appellees. ON BRIEF:
Pierre H. Bergeron, Lauren S. Kuley, Scott W. Coyle,
Colter Paulson, SQUIRE PATTON BOGGS (US) LLP,
Cincinnati, Ohio, Gregory V. Mersol, Gilbert Brosky,
BAKER & HOSTETLER LLP, Cleveland, Ohio, for
Appellants. Charles J. Crueger, Erin K. Dickinson,
CRUGER
DICKINSON
LLC,
Whitefish
Bay,
Wisconsin, Gregory F. Coleman, GREG COLEMAN
LAW PC, Knoxville, Tennessee, Edward A. Wallace,
Kara A. Elgersma, WEXLER WALLACE LLP,
Chicago, Illinois, Drew T. Legando, LANDSKRONER
GRIECO MERRIMAN, LLC, Cleveland, Ohio, for
Appellees. J. Philip Calabrese, PORTER WRIGHT
MORRIS & ARTHUR LLP, Cleveland, Ohio, C. Darcy
Copeland Jalandoni, PORTER WRIGHT MORRIS &
ARTHUR LLP, Columbus, Ohio, Shay Dvoretzky,
JONES DAY, Washington, D.C., Paulo B. McKeeby,
Ronald E. Manthey, MORGAN, LEWIS & BOCKIUS
LLP, Dallas, Texas, Mary Ellen Signorille, AARP
FOUNDATION LITIGATION, Washington, D.C., Seth

3a
R. Lesser, KLAFTER OLSEN & LESSER LLP, Rye
Brook, New York, for Amici Curiae.
BOGGS, J., delivered the opinion of the court in
which ROGERS, J., joined. CLAY, J. (pp. 16–25),
delivered a separate dissenting opinion.
OPINION
BOGGS, Circuit Judge. In this class action, the
named plaintiffs represent several thousand current
and former insurance agents for American Family
Insurance Company and its affiliates (collectively,
“American Family” or “the company”). The agents
claim that American Family misclassified them as
independent contractors, while treating them as
employees, in order to avoid paying them benefits in
compliance with the Employee Retirement Income
Security Act of 1974 (“ERISA”).
The sole issue in this interlocutory appeal concerns
the nature of the parties’ legal relationship: are the
plaintiffs employees or independent contractors for
American Family? The company appeals the district
court’s judgment that the plaintiffs are employees.
Because American Family properly classified its agents
as independent contractors, we reverse.
I
As with many insurance companies, American
Family sells its products primarily through a network
of insurance agents. American Family, in keeping with
common industry practice, classifies its agents as
independent contractors rather than employees.

4a
Taking issue with this designation and the
consequences it has on their ability to enjoy the
protections of ERISA, the plaintiffs brought a proposed
class action against American Family in 2013, alleging
that the company misclassified them as independent
contractors. The plaintiffs contended that their
miscategorization “deprived [them] of the rights and
protections guaranteed by state and federal law to
employees, including their rights under ERISA.” They
sought, inter alia, a declaratory judgment that they are
employees for all purposes, including but not limited to
ERISA, and that as employees they are due benefits
under ERISA.
Both parties filed several pre-trial motions,
including motions by American Family to dismiss and
later for summary judgment. The plaintiffs, for their
part, moved for class certification. The district court
granted the plaintiffs’ motion and denied each of
American Family’s motions in whole or in part. The
company sought permission from this court to appeal
the district court’s order granting class certification,
but we denied the company’s request. The district
court subsequently denied two motions by American
Family to decertify the class.
The case then proceeded to trial, which the district
court bifurcated to allow for determination of the
threshold question of the plaintiffs’ employment status.
Trial of this single issue took place before an advisory
jury, pursuant to Federal Rule of Civil Procedure
39(c)(1), which permits district courts to “try any issue

5a
with an advisory jury” in an action that is “not triable
of right by a jury.”1
During the twelve-day trial, the jury learned that
the parties took many steps to structure their
relationship consistent with American Family’s
position that its agents are independent contractors.
Most pointedly, at the outset of the agents’ tenure with
the company, all agents signed a written agreement
stating that they were independent contractors rather
than employees. In keeping with this designation, the
agents file their taxes as independent contractors and
deduct their business expenses as self-employed
business owners. American Family also pays its agents
in commissions and does not provide them with
vacation pay, holiday pay, sick pay, or paid time off.
Moreover, as the district court recounted, “[t]he
company calls its agents ‘business owners’ and
‘partners’ and tells new agents they will be ‘agency
business’ owners and that they need to ‘invest’ in ‘their
business.’” The agents work out of their own offices, set
their own hours, and hire and pay their own staff.
They also are responsible for providing most of the
resources necessary to run their agencies, such as
office furniture and office supplies.
But the plaintiffs also presented significant
evidence to support their claim that American Family
Plaintiffs seeking relief under ERISA generally have no
right to have their claims decided by a jury. See, e.g., Wilkins v.
Baptist Healthcare Sys., 150 F.3d 609, 616 (6th Cir. 1998);
Bittinger v. Tecumseh Prods. Co., 123 F.3d 877, 882–83 (6th Cir.
1997); Bair v. Gen. Motors Corp., 895 F.2d 1094, 1096–97 (6th Cir.
1990).
1

6a
treats them more like employees than independent
partners and business owners. The company classifies
everyone in its sales force—other than its agents—as
employees. Nevertheless, the company’s training
manuals refer to the agents as “employees.” Each
agent must report to an Agency Sales Manager, and
the plaintiffs presented testimony that American
Family did not train these managers to treat the
agents as independent contractors or even make the
managers aware that the agents were classified as
such.
According to the plaintiffs, the managers exerted a
great amount of control over their day-to-day activities.
The managers insisted, among other required tasks,
that the agents complete daily activity reports,
prioritize selling certain insurance policies, and
participate in “life-call” nights in which the agents had
to stay after normal business hours to solicit life
insurance by calling prospective customers. The
plaintiffs also offered testimony that the company
retained some authority to approve or disapprove of
the location of the agents’ offices and to be involved in
the hiring and firing of the agents’ staff in a way that
limited the plaintiffs’ ability to run their own agencies.
The jury also heard testimony that American
Family teaches agents everything they need to know to
become licensed, run an agency, and sell the company’s
products. All agents attend a two-to-three-month-long
comprehensive training program run by American
Family on how to sell insurance and how to operate an
agency. Once hired, the agents must sell insurance
exclusively for American Family, and they are
discouraged—but not forbidden—from taking other

7a
work, even if it is unrelated to the insurance industry.
There is no limit on the duration of the agency
relationship, and American Family describes the
agency position as a career position. Although the
agents are not eligible for the same pension or
retirement plans given to the company’s employees,
they are offered an “extended earnings” benefit that is
described to them as a retirement plan.2 When and if
their relationship with the company does come to an
end, the agents are prohibited for a year from soliciting
business from any of their former American Family
customers. And unlike most business owners, the
agents cannot sell their agencies or assign any rights
to income from their agencies.
At the close of the trial, the court presented the
advisory jury with the following interrogatory:
Please answer the following question “yes” or
“no” according to your findings:
Did Plaintiffs prove by a preponderance of the
evidence that they are employees of Defendant
American Family?
The jury answered “yes.”
After giving the parties a final opportunity to
present their proposed findings of fact and conclusions
of law, the court issued an opinion in which it
The “extended earnings” program offered a lifetime annuity
to agents and was reported as one of American Family’s “Defined
Benefit Plans” in its annual statement filed with insurance
regulators. Agents were automatically enrolled in these plans, did
not contribute to these plans, and received increasing benefits
with increasing years of service.
2

8a
acknowledged that although it was not bound by the
advisory jury’s determination, it believed that the
jury’s verdict “comport[ed] with the weight of the
evidence presented at trial.” Accordingly, the district
court determined that the agents were employees for
the purposes of ERISA.
The district court certified its ruling for an
interlocutory appeal under 28 U.S.C. § 1292(b), and
American Family filed a petition for interlocutory
review of the court’s order. We granted permission to
appeal, which American Family did, arguing that the
district court erred in determining that the plaintiffs
are employees.3
II.
A.
The determination of whether a plaintiff qualifies
as an employee under ERISA is a mixed question of
law and fact that a judge normally can make as a
matter of law. See Weary v. Cochran, 377 F.3d 522,
524 (6th Cir. 2004); Waxman v. Luna, 881 F.2d 237,
240 (6th Cir. 1989). After a bench trial to determine a
plaintiff’s employment status, this court typically
reviews a district court’s factual findings for clear error
and its legal conclusions, including its ultimate
decision about the plaintiff’s status, de novo. Solis v.
Laurelbrook Sanitarium & Sch., Inc., 642 F.3d 518,
522 (6th Cir. 2011). However, “[o]n interlocutory

The company also contends that the court’s determination
was erroneous because it relied on nonrepresentative class
evidence. Because we decide the case on other grounds, we do not
reach this issue.
3

9a
appeal under 28 U.S.C. 1292(b), our review is limited
to the district court’s conclusions of law.” Sheet Metal

Emp’rs Indus. Promotion Fund v. Absolut Balancing
Co., 830 F.3d 358, 361 (6th Cir. 2016). We review those

conclusions de novo, but “we have no authority to
review the district court’s findings of fact.” Nw. Ohio
Adm’rs, Inc. v. Walcher & Fox, Inc., 270 F.3d 1018,
1023 (6th Cir. 2001).
“ERISA is a comprehensive statute designed to
promote the interests of employees and their
beneficiaries in employee benefit plans.” Shaw v. Delta
Air Lines, 463 U.S. 85, 90 (1983). The plaintiffs
brought this action under 29 U.S.C. § 1132(a), which
enables “participant[s]” in an employee benefit plan to
enforce ERISA’s substantive provisions. Under ERISA,
a “participant” is “any employee or former employee of
an employer . . . who is or may become eligible to
receive a benefit of any type from an employee benefit
plan which covers employees of such employer.” 29
U.S.C. § 1002(7). Therefore, the plaintiffs can prevail
on their ERISA claims only if they can show that they
were American Family’s employees. Nationwide Mut.
Ins. Co. v. Darden, 503 U.S. 318, 321 (1992).
ERISA defines an “employee” as “any individual
employed by an employer.” 29 U.S.C. § 1002(6). An
“employer,” in turn, “means any person acting directly
as an employer, or indirectly in the interest of an
employer, in relation to an employee benefit plan.”
§ 1002(5). Because these definitions provide little
guidance as to the meaning of “employee,” “the
Supreme Court has instructed courts to interpret the
term by ‘incorporating the common law of agency.’”
Bryson v. Middlefield Volunteer Fire Dep’t, Inc., 656

10a
F.3d 348, 352 (6th Cir. 2011) (quoting Ware v. United
States, 67 F.3d 574, 576 (6th Cir. 1995) (citing Darden,
503 U.S. at 322–24)).
In Darden, the Supreme Court provided the
following standard “for determining who qualifies as
an ‘employee’ under ERISA.” 503 U.S. at 323.
In determining whether a hired party is an
employee under the general common law of
agency, we consider the hiring party’s right to
control the manner and means by which the
product is accomplished. Among the other
factors relevant to this inquiry are the skill
required; the source of the instrumentalities
and tools; the location of the work; the duration
of the relationship between the parties;
whether the hiring party has the right to
assign additional projects to the hired party;
the extent of the hired party’s discretion over
when and how long to work; the method of
payment; the hired party’s role in hiring and
paying assistants; whether the work is part of
the regular business of the hiring party;
whether the hiring party is in business; the
provision of employee benefits; and the tax
treatment of the hired party.

Id. at 323–24 (quoting Cmty. for Creative Non-Violence
v. Reid, 490 U.S. 730, 751–52 (1989)). In addition to
these factors (“the Darden factors”), we have held that
an express agreement between the parties concerning
employment status is also a relevant consideration.
See Weary, 377 F.3d at 525.

11a
The “crux of Darden’s common law agency test is
‘the hiring party’s right to control the manner and
means by which the product is accomplished.’” Ibid.
(quoting Darden, 503 U.S. at 323). Thus, “our analysis
of [the Darden] factors . . . reflects upon, and is
relevant to, this core issue of control.” Ibid. “[T]he
relative weight given each factor may differ depending
upon the legal context of the determination.” Ware, 67
F.3d at 578. “Notwithstanding this recognition that
certain factors may deserve added weight in some
contexts, a court must evaluate all of the incidents of
the employment relationship.” Ibid.; see also Darden,
503 U.S. at 324 (“Since the common-law test contains
‘no shorthand formula or magic phrase that can be
applied to find the answer, . . . all of the incidents of
the relationship must be assessed and weighed with no
one factor being decisive.’” (alteration in original)
(quoting NLRB v. United Ins. Co. of Am., 390 U.S. 254,
258 (1968)).
Applying the test from Darden and its progeny, the
district court determined that the plaintiffs were
employees rather than independent contractors. After
deciding that the Darden factors were “almost evenly
split between favoring employee status and favoring
independent contractor status,” the court proceeded to
a broader analysis of the level of control that American
Family exercised over its agents. Ultimately, the court
concluded that “[t]he degree of control managers were
encouraged to exercise was inconsistent with
independent contractor status and was more in line
with the level of control a manager would be expected
to exert over an employee.” This, along with the
evidence related to the other Darden factors, led the

12a
court to determine that the plaintiffs were employees
during the relevant class period.
B
Since in this interlocutory appeal we may review
only the district court’s conclusions of law, we must
first decide which of the court’s determinations were
matters of law and which were factual. This much is
clear: the district court’s findings underlying its
holding on each of the Darden factors are factual
findings, and the court’s ultimate conclusion as to
whether the plaintiffs were employees is a question of
law.
But what of the court’s conclusions about the

Darden factors—both of their existence and of the

weight to be assigned them? Are these factual findings
or conclusions of law? Although neither party has
provided much briefing on this question, the plaintiffs
suggest that these are issues of fact, while American
Family claims that they are issues of law. The parties’
dispute is understandable, as we have yet to clarify
whether and to what extent a court’s conclusions about
the individual factors that make up the Darden
standard are factual or legal in nature. Indeed, some of
our decisions seem to be in tension with one another,
with some indicating that a district court’s
determinations on the Darden factors are factual
findings, see Peno Trucking, Inc. v. C.I.R., 296 F. App’x
449, 454–60 (6th Cir. 2008) (stating, first, that the
appropriate rule is to review factual findings for clear
error and, second, that the Tax Court’s findings about
control and other factors were not clearly erroneous);
Moore v. Lafayette Life Ins., 458 F.3d 416, 440 (6th
Cir. 2006) (concluding that the district court’s findings

13a
on Darden factors were not clearly erroneous), and
others suggesting that they are legal conclusions, see
Janette v. Am. Fid. Grp., Ltd., 298 F. App’x 467, 473–
74 (6th Cir. 2008) (describing the proper tests for the
control factor and skill-required factor); Weary, 377
F.3d at 526 (explaining that a certain degree of limited
authority is not the type of control that establishes an
employer-employee relationship); id. at 532 (arguing
that the majority erred in defining the skill-required
factor and explaining what the “legal issue” is
concerning that factor) (Clay, J., dissenting).
Other circuits, however, have explicitly considered
this question and have come down on the side of
treating these as factual matters subject to review for
clear error. According to our sister circuits:
The existence and degree of each factor is a
question of fact while the legal conclusion to be
drawn from those facts—whether workers are
employees or independent contractors—is a
question of law. Thus, a district court’s findings
as to the underlying factors must be accepted
unless clearly erroneous, while review of the
ultimate question of employment status is de
novo.

Brock v. Superior Care, Inc., 840 F.2d 1054, 1059 (2d

Cir. 1988) (applying multi-factor “economic reality”
test to claim under FLSA); Berger Transfer & Storage
v. Cent. States, Se. and Sw. Areas Pension Fund, 85
F.3d 1374, 1377–78 (8th Cir. 1996); Dole v. Snell, 875
F.2d 802, 805 (10th Cir. 1989).
Granting due weight to our own and our sister
circuits’ jurisprudence, we do not agree that a district

14a
court’s conclusion relating to the existence and degree
of each Darden factor is entirely a question of fact.
There is a distinction between a lower court’s factual
findings, which we review for clear error, and “the
district court’s application of the legal standard to
them,” which we review de novo. Solis v. Laurelbrook
Sanitarium and School, Inc., 642 F.3d 518, 522 (6th
Cir. 2011). The lower court’s determination of a
Darden factor often necessarily involves the
application of a legal standard to particular factual
findings. Take, for example, Darden’s first factor:
[W]hether the skill [required of an agent] is an
independent discipline (or profession) that is separate
from the business and could be (or was) learned
elsewhere.” Weary, 377 F.3d at 532 (Clay, J.,
dissenting); see also Darden, 503 U.S. at 323. As Judge
Clay observed in his dissent in Weary, there is a “legal
issue” inherent in the first factor as to whether to
consider “the amount of skill required” or rather
whether the skill is an independent discipline (or
profession) that is separate from the business.”
Weary, 377 F.3d at 532 (Clay, J., dissenting). Each
Darden factor is thus itself a “legal standard” that
the district court is applying to the facts. See also
Ware, 67 F.3d at 576 (distinguishing the “facts and
circumstances” underlying the Darden factors from
both “the legal meaning and weight that those facts
should be given individually and in the aggregate”)
(emphasis added). It is therefore appropriate for us to
review de novo those determinations to the extent that
they involve the application of a legal standard to a set
of facts.

15a
What’s more, as we recognized in Ware, “the
relative weight given to each [Darden] factor may
differ depending upon the legal context of the
determination.” Id. at 578 (emphasis added). Thus,
for example, “a hiring party’s control is more relevant
in the context of copyright ownership, because the
statute assigns ownership on the basis of authorship
unless the parties explicitly agree otherwise,” but less
important in an ERISA context.” Ibid. This implies
that certain factors may carry more or less weight
depending on the particular legal context in which the
independent-contractor
relationship
is
being
determined. Ibid. (noting that the “same test might
produce disparate results in different contexts”).
Accordingly, it is also appropriate for us to review de
novo the district court’s weight assigned to of each of
the Darden factors, given the legal context in which
the claim has been brought.
III
A
Here, the district court incorrectly applied the legal
standards in determining the existence of the Darden
factors relating to (1) the skill required of an agent and
(2) the hiring and paying of assistants. Had the court
applied those standards properly, it would have found
that those factors actually favored independentcontractor status. We analyze each of those factors
below.4
Since we do not find that the district court applied an
improper legal standard to any of the other Darden factors, we do
not address them here.
4

16a
The first factor under Darden looks to “whether
the skill [required of an agent] is an independent
discipline (or profession) that is separate from the
business and could be (or was) learned elsewhere.”
Weary, 377 F.3d at 532 (Clay, J., dissenting); see also
Janette, 298 F. App’x at 474. The district court held
that the “amount of skill” factor under Darden
weighs “slightly in favor of employee status”
primarily on the basis that American Family “sought
out potential agents who were untrained.” In doing so,
the district court erred.
This circuit has previously held that the skill
required of insurance agents weighs in favor of
independent-contractor status because “the sale of
insurance is a highly specialized field” that requires
“considerable training, education, and skill.” Weary,
377 F.3d at 526–27 (internal quotations omitted). The
skill inquiry centers on whether the skill is an
independent discipline that “could be” learned
elsewhere. Id. at 532 (Clay, J., dissenting). Though
American Family preferred hiring untrained, and often
unlicensed, agents, the underlying discipline of selling
insurance remains the same regardless of American
Family’s hiring preferences. Ibid. (“[B]ecause the skill
of selling insurance is a general one, the majority may
be correct in its conclusion that this factor favors
independent contractor status.”). The district court
therefore misapplied the legal standard to the facts;
the correct application would have weighed this factor
in favor of independent contractor status, as this
circuit has done previously.

Darden’s eighth factor examines “the hired party’s
role in hiring and paying assistants.” Darden, 503 U.S.

17a
at 323–24. The court mistakenly weighed this factor as
“neutral” after concluding that the agents “had
primary authority to hire their own staff” and were
solely responsible for all “staff compensation matters.”
The district court found, as a factual matter, that
American Family agents were responsible for paying
their own staff, determining and paying for any
benefits and taxes associated with that staff, and
deciding whether to classify their staff as employees or
independent contractors. While American Family
provided “pre-approved” candidates, whom the agents
could select as their staff, it did not require the agents
to hire these pre-screened candidates. Agents also had
sole discretion in staff-compensation matters and the
sole responsibility to withhold and remit taxes to the
federal government as the employers of their staff.
On the other hand, American Family imposed
qualifications on appointed agency staff, including
state licensure, clean driving records, education levels,
credit history, and minimum income-to-debt ratios.
American Family did not provide computer access to
any non-approved appointed agency staff and required
agency staff to agree to a lifetime non-solicitation
agreement. American Family had the right to fire any
agency staff, appointed or non-appointed, who did not
live up to the American Family Code of Conduct, and it
retained the right, although rarely exercised, to fire
agency staff for any reason. American Family
managers were also evaluated on the number of staff
employed by their agents and would sometimes offer
monetary subsidies to agents to hire more staff.
Considering all of these facts, the district court
determined that “[a]lthough American Family retained

18a
some right to override an agent’s hiring and firing
decision, on balance, agents had primary authority
over hiring and paying their assistants.” Yet the court
inexplicably concluded from that finding that the factor
was “neutral.” This conclusion was contrary to
Darden’s language. If the hired party has the “primary
authority over hiring and paying its own assistants,”
the Darden factor regarding “the hired party’s role in
hiring and paying assistants” should weigh in favor of
independent-contractor status. Janette, 298 F. App’x at
475–76 (Because plaintiff “could have hired assistants,
at her expense,” the factor favored independentcontractor status.). Any other conclusion conflicts with
Darden’s clear language.
B
Further, given our determination regarding the
existence of each of the Darden factors,5 the district
court also erred by not properly weighing those factors
that are particularly significant in the legal context of
ERISA eligibility. Darden asks us to look at the “hiring
party’s right to control the manner and means by
which the product is accomplished,” which we have
determined to be “a broad consideration that is
embodied in many of the specific factors articulated”
there. Weary, 377 F.3d at 525. But “the relative weight
given each [Darden] factor may differ depending upon
the legal context of the determination.” Ware, 67 F.3d
at 578. In particular, “control and supervision is less
important in an ERISA context, where a court is
determining whether an employer has assumed
That is to say, whether each Darden factor favors
independent-contractor or employee status.
5

19a
responsibility for a person’s pension status.” Ibid.
Because ERISA cases focus on the financial benefits
that a company should have provided, the financial
structure of the company-agent relationship guides the
inquiry. Here, the Darden factors that most pertain to
that financial structure favor independent-contractor
status and, accordingly, carry more weight in the
ERISA context.
In this case, the district court found that the
insurance agents invested heavily in their offices and
instrumentalities, paid rent and worked out of their
own offices, earned commissions on sales, were not
eligible for employment benefits, and paid taxes as
independent contractors. Accordingly, the court
weighed
factors
two
(the
source
of
the
instrumentalities and tools), three (the location of the
work), seven (method of payment), eleven (provision of
employee benefits), and twelve (tax treatment) in favor
of independent-contractor status.6 We have now
corrected the district court’s weighing of factors one
(the skill required) and eight (the hired party’s role in
hiring and paying assistants) to favor independentcontractor status, as well. Because this inquiry exists
in the legal context of ERISA benefits, this collection of
factors—particularly the ones relating to the source of
the instrumentalities and tools, the method of
payment, the provision of employee benefits, and the
agents’ tax treatment—is especially important in
The district court weighed the “method of payment” factor
in favor of independent-contractor status for agents “once they
began selling policies out of their own office.” During the agents’
“training period,” the court weighed the factor in favor of
employee status.
6

20a
determining
the
parties’
financial
structure.
Accordingly, these factors should have carried greater
weight in the district court’s final analysis. Had the
court properly weighed those factors in accordance
with their significance, it would have determined that
the entire mix of Darden factors favored independentcontractor status.
As further evidence of the financial structure of the
parties’ relationship, the lower court should have also
given greater weight to the parties’ express agreement.
In determining the parties’ relationship in the Darden
context, we have several times “look[ed] to any express
agreement between the parties as to their status as it
is the best evidence of their intent” and placed great
weight on that agreement. Janette, 298 F. App’x. at
471; Weary, 377 F.3d at 525 (noting that the existence
of a contract characterizing Weary as an independent
contractor is “certainly relevant to the inquiry” and
shows “how the parties themselves viewed the nature
of their working relationship”). Our sister circuits have
adopted this approach, as well. See Brown v. J. Kaz.,
Inc., 581 F.3d 175, 181 (3d Cir. 2009) (noting that an
independent-contractor agreement “is strong evidence”
of independent-contractor status); Schwieger v. Farm
Bureau Ins. Co. of Neb., 207 F.3d 480, 487 (8th Cir.
2000) (same). A written contract shows “how the
parties themselves viewed the nature of their working
relationship” and therefore carries great—but not
dispositive—weight in determining an independentcontractor relationship. Weary, 377 F.3d at 525.
The Agent Agreement governing the parties’
business relationship here indicates that they
structured their relationship so that the agents should

21a
be treated as independent contractors. Each
Agreement contained a paragraph either identical to or
substantively similar to the following:
It is the intent of the parties hereto that you
are not an employee of the Company for any
purpose, but are an independent contractor for
all purposes, including federal taxation with
full control of your activities and the right to
exercise independent judgment as to time,
place and manner of soliciting insurance,
servicing policyholders and otherwise carrying
out the provisions of this agreement. As an
independent contractor you are responsible for
your self-employment taxes and are not eligible
for various employee benefits such as Workers
and Unemployment Compensation.
The Agreement also provides that:
Rates, rules, regulations and all provisions
contained in the Company’s Agent’s Manuals
and all changes to them shall be binding upon
you. If any inconsistency or ambiguity exists
between this agreement and such rate, rule,
regulation, provision or other statement or
statements, whether written or oral, this
agreement shall control.
(emphasis added). The Agency Agreement therefore
states in wholly unambiguous terms that agents are
independent contractors who retain “full control” over
several facets of their business.
The district court correctly recognized that the
agreement favored independent-contractor status. But
the court apparently did not weigh this important

22a
component when reaching its conclusion regarding
independent-contractor status. Had the lower court
given this express agreement proper consideration, it
would have further swung the balance in favor of
independent-contractor status.
IV
This court has time and again declared insurance
agents to have independent-contractor status—and
appellees have presented no case in which we have not
done so. See, e.g., Weary, 377 F.3d at 524; Wolcott v.
Nationwide Mut. Ins. Co., 884 F.2d 245, 251 (6th Cir.
1989). Some of our sister circuits have in fact already
found American Family agents to be independent
contractors in other contexts. Wortham v. Am. Family
Ins. Grp., 385 F.3d 1139, 1140–41 (8th Cir. 2004);
Moore v. Am. Family Mut. Ins. Co., No. 90-3107, 1991
U.S. App. LEXIS 13574, *3 (7th Cir. June 25, 1991).
The plaintiffs have not shown that the facts here are so
radically different from these cases to justify what
would be a significant departure from these rulings,
especially in the “legal context” of ERISA eligibility
where we have held that “control and supervision is
less important” than the financial structure of the
parties’ relationship. Ware, 67 F.3d at 578.
Accordingly, we REVERSE and REMAND for further
proceedings in accordance with this holding.

23a
DISSENT
CLAY, Circuit Judge, dissenting. The only issue in
this interlocutory appeal is whether Plaintiffs are
“employees” or “independent contractors” for purposes
of the Employee Retirement Income Security Act of
1974 (“ERISA”), 29 U.S.C. § 1001 et seq. The majority
holds that Plaintiffs are independent contractors based
on its analysis of the factors set forth by Nationwide
Mut. Ins. Co. v. Darden, 503 U.S. 318 (1992). However,
because the majority (1) adopts an incorrect standard
of review for district court determinations regarding
whether and to what extent the Darden factors support
employee or independent contractor status; (2)
incorrectly analyzes Darden factors one and eight; and
(3) incorrectly weighs the Darden factors, I respectfully
dissent.
I.

Background

American Family Insurance Company (hereinafter
referred to as “American Family” or “Defendants”) is
an insurance company “whose business is selling
insurance.” (RE 320, District Court Opinion, PageID #
20949.)1 Unsurprisingly, American Family’s insurance
agents “are core to [this] business.” (Id.) Over the last
five years, American Family’s insurance agents have
brought in 85% of American Family’s insurance
premiums—approximately $5.1 billion. Yet, American
Family does not provide its agents with numerous
Except as otherwise indicated, record citations refer to the
record in district court action No. 13-cv-00437.
1

24a
health, welfare, and retirement benefits, including “a
retirement plan, 401K plan, group health plan, group
dental plan, group life plan, and long-term disability
plan.” (Id. at PageID # 20945.) American Family claims
it is not required to provide these benefits because it
classifies its insurance agents as independent
contractors, not employees, relieving it of all ERISA
obligations.
Plaintiffs represent a class of some 7,200 current
and former American Family insurance agents seeking
ERISA benefits who challenge that classification.
Plaintiffs argue that the circumstances of their
relationship with American Family demonstrate that
they are employees, regardless of what American
Family chooses to call them. Accordingly, the district
court bifurcated this case to determine at the outset
whether Plaintiffs are employees or independent
contractors for purposes of ERISA.
A twelve-day trial before an advisory jury ensued.
Twenty-seven witnesses were called, and extensive
documentary evidence was submitted. At the
conclusion of the trial, the advisory jury unanimously
concluded that Plaintiffs were employees. Though it
was not bound by the jury’s verdict, the district court
reached the same conclusion.
In reaching that conclusion, the district court
relied on the factors articulated in Nationwide Mut.
Ins. Co. v. Darden, 503 U.S. 318 (1992) for determining
whether an individual is an employee or an
independent contractor. The Darden factors include:
the skill required; the source of the
instrumentalities and tools; the location of the

25a
work; the duration of the relationship between
the parties; whether the hiring party has the
right to assign additional projects to the hired
party; the extent of the hiring party’s
discretion over when and how long to work; the
method of payment; the hired party’s role in
hiring and paying assistants; whether the work
is part of the regular business of the hiring
party; whether the hiring party is in business;
the provision of employee benefits; and the tax
treatment of the hired party.

Id. at 323–24. This Court has also held that an express
agreement between the parties is a relevant factor. See
Weary v. Cochran, 377 F.3d 522, 525 (6th Cir. 2004).
The crux of this test is “the hiring party’s right to
control the manner and means by which the product is
accomplished.” Darden, 503 U.S. at 323.

Although the majority reaches a different
conclusion than did the advisory jury and the district
court, it disagrees with only a few aspects of the
district court’s analysis of the Darden factors. Because
I agree with the advisory jury and the district court,
this dissenting opinion will address only those Darden
factors that the majority discusses. The district court’s
well-reasoned opinion speaks for itself as to the
remaining Darden factors.
Before addressing the majority’s discussion of the

Darden factors, a preliminary issue must be resolved.
II. Standard of Review and Legal Framework

As the majority explains, this case requires us to
adopt a standard of review for district court
determinations regarding the existence and degree of

26a
the Darden factors—that is, whether and to what
extent each factor supports employee or independent
contractor status. Plaintiffs assert that these
determinations are findings of fact typically reviewed
for clear error, while Defendants assert that they are
conclusions of law typically reviewed de novo. The
Sixth Circuit has yet to explicitly address this issue,
and our cases implicitly addressing this issue fail to
provide a clear answer. Compare Peno Trucking, Inc.
v. Comm’r of Internal Revenue, 296 F. App’x 449, 454–
60 (6th Cir. 2008) (reviewing for clear error, without
much discussion) with Janette v. Am. Fidelity Grp.,
Ltd., 298 F. App’x 467, 472–76 (6th Cir. 2008)
(reviewing de novo, without much discussion).
Accordingly, it might be helpful to consider cases from
other circuits.
Four circuits have explicitly addressed this issue,
and all four held that the existence and degree of each
Darden factor constitutes a finding of fact reviewed for
clear error. See Berger Transfer & Storage v. Cent.
States Pension Fund, 85 F.3d 1374, 1377–78 (8th Cir.
1996); Dole v. Snell, 875 F.2d 802, 805 (10th Cir. 1989);
Brock v. Superior Care, Inc., 840 F.2d 1054, 1059 (2d
Cir. 1988); Brock v. Mr. W Fireworks, Inc., 814 F.2d
1042, 1043–44 (5th Cir. 1987).2
The Fifth Circuit’s reasoning in Mr. W Fireworks is
particularly instructive. In that case, the court
explained that “[t]here are . . . three types of findings
Those cases that pre-date Darden address the same issue
with regard to the Darden factors’ predecessor, the Silk factors.
See United States v. Silk, 331 U.S. 704 (1947), abrogated by
Darden, 503 U.S. at 525.
2

27a
involved in determining whether one is an employee
within the meaning of the [Fair Labor Standards] Act.”
814 F.2d at 1044. “First, there are historical findings of
fact that underlie a finding as to one of [the factors].”
Id. These are undisputedly reviewed for clear error.
“Second, there are those findings as to [the factors]
themselves.” Id. These findings are “plainly and simply
based on inferences from [the historical] facts and thus
are [also] questions of fact that we may set aside only if
clearly erroneous.” Id. “Finally, the district court must
reach an ultimate conclusion that the workers at issue
are ‘employees’ or ‘independent contractors’” Id. at
1045. This is undisputedly reviewed de novo, as “[t]he
ultimate finding as to employee status is not simply a
factual inference drawn from historical facts [like the
findings as to the factors themselves], but more
accurately is a legal conclusion based on factual
inferences drawn from historical facts.” Id.
The reasoning of the Second, Fifth, Eighth, and
Tenth Circuits is sound. “The existence and degree of
each [Darden] factor [are] question[s] of fact” because
they are based on simple inferences drawn from
underlying historical findings of fact. Berger Transfer,
85 F.3d at 1377–78. For instance, Darden factor five is
“whether the hiring party has the right to assign
additional projects to the hired party.” Darden, 503
U.S. at 323–24. A finding that this factor supports
employee status is based on a simple inference from a
finding that “the hiring party had the right to assign
additional projects to the hired party.” See Hi-Tech
Video Prods., Inc. v. Capital Cities/ABC, Inc., 58 F.3d
1093, 1096 (6th Cir. 1995). Thus, the two findings

28a
should both be subject to the clear error standard of
review.
The majority’s contrary holding—that “[e]ach
Darden factor is . . . itself a ‘legal standard’ that the
district court is applying to the facts”—is belied not
only by the unanimity of other circuits that have
addressed this issue, but also by the cases on which it
purports to rely. The majority’s reliance on my dissent
in Weary v. Cochran, wherein I referred to Darden
factor one as a “legal issue,” is misplaced. 377 F.3d
522, 532 (6th Cir. 2004). Needless to say, it is the
majority opinion in Weary that binds this Court,
including myself, no matter what is said in the
dissent.3 See Johnson v. Doodson Ins. Brokerage, LLC,
793 F.3d 674, 677 (6th Cir. 2015). The majority then
cites Ware v. United States, in which this Court
distinguished the “facts and circumstances” of an
employment relationship from “the legal meaning and
weight that those facts should be given.” 67 F.3d 574,
576 (6th Cir. 1995). But the “legal meaning” that the
Darden factors should be given—i.e., whether
Plaintiffs are employees or independents contractors
for purposes of ERISA—and the “legal weight” that the
Darden factors should be given—i.e., which factors
should be relied upon more than others and when—are
both undisputedly conclusions of law reviewed de novo.

See Trs. of Resilient Floor Decorators Ins. Fund v.

The majority cites various portions of my dissent in Weary a
total of five times throughout its opinion. Such cherry-picking
does nothing to increase the persuasiveness of the majority’s
reasoning, particularly to the extent that my dissent is at odds
with controlling case law and the subsequent published decisions
of this Court.
3

29a

A&M Installations, Inc., 395 F.3d 244, 249 (6th Cir.
2005); Hi-Tech Video Prods., Inc. v. Capital
Cities/ABC, Inc., 58 F.3d 1093, 1096 (6th Cir. 1995).
Thus, the majority’s reliance upon Ware misses the
point. That case says nothing about the existence and
degree of each Darden factor, a distinct, factual
determination that should be reviewed for clear error.

The procedural posture of this case may help
explain the difficulty with the majority’s reasoning.
Because this is an interlocutory appeal, we “have no
authority to review the district court’s findings of fact.”

Northwestern Ohio Adm’rs, Inc. v. Walcher & Fox,
Inc., 270 F.3d 1018, 1023 (6th Cir. 2001).

Consequently, a holding that the district court’s
determinations regarding the existence and degree of
each Darden factor are findings of fact to be reviewed
for clear error would, in this case, preclude any review
of such determinations, and diminish the majority’s
ability to reverse a decision that the majority believes
goes against the weight of authority.
III. Analysis of Darden Factors One and Eight
Even assuming arguendo that district court
determinations regarding the existence and degree of
each Darden factor constitute applications of law to
fact that we have authority to review in this case, the
majority incorrectly analyzes Darden factors one and
eight, the only two factors on which the majority
disagrees with the district court’s analysis.

Darden factor one is “the skill required”—here, of
an insurance agent. Darden, 503 U.S. at 323–24. And

“the sale of insurance is a ‘highly specialized field,’
requiring considerable ‘training,’ ‘education,’ and

30a
‘skill.’” Weary, 377 F.3d at 527 (quotation omitted).
However, that is not the end of the inquiry. Because
“‘skills are not the monopoly of independent
contractors’ . . . [i]t is also important to ask how the
worker acquired his skill.” Keller v. Miri Microsystems,
LLC, 781 F.3d 799, 809 (6th Cir. 2015) (quoting Sec’y
of Labor v. Laurtizen, 835 F.2d 1529, 1537 (6th Cir.
1987)).4 “[If] the company provides all workers with the
skills necessary to perform the job, then that weighs in
favor of finding that the worker is indistinguishable
from an employee.” Id. Accordingly, in Keller, this
Court held that there was a genuine issue of material
fact regarding the skill required of the plaintiff because
“[the defendant] provided [the plaintiff] with the
critical training necessary to do the work.” Id.
It is undisputed that the same is true in this case.
The district court found that “[Defendants] almost
always hired untrained, and often unlicensed, agents
and provided all the training they needed to be an
American Family agent.” (RE 320, PageID # 20972.) In
fact, they “preferred to hire untrained agents so that
they could be trained in the ‘American Family’ way.”
(Id. at PageID # 20972–73.) And “[i]f an agent had
worked for a different company prior to being hired at
American Family, they were re-trained in the ways of
American Family agents upon hire.” (Id. at PageID #
The Seventh Circuit has also recognized the importance of
this question. See Equal Emp’t Opportunity Comm’n v. N. Knox
Sch. Corp., 154 F.3d 744, 747 (7th Cir. 1998) (explaining that the
Seventh Circuit’s Knight factors, in which the Darden factors are
“subsumed,” include “the kind of occupation and nature of skill
required, including whether skills are obtained in the workplace”)
(emphasis added).
4

31a
20973–74.) Thus, because “the company provide[d] all
workers with the skills necessary to perform the job,”
the district court was correct in its determination that
Darden factor one supports the status of Plaintiffs as
employees. Keller, 781 F.3d at 809.
The majority’s contrary holding—that “this factor
[weighs] in favor of independent contractor status”—is
again undermined by the cases on which it purports to
rely. The majority reasons that “[t]he first factor under
Darden looks to ‘whether the skill is an independent
discipline (or profession) that is separate from the
business and could be (or was) learned elsewhere,’” and
that the skill of an insurance agent “could be” learned
elsewhere, but in doing so relies solely on the dissent
in Weary.5 And the dissent in Weary glaringly conflicts
with this Court’s subsequent decision in Keller, in
which this Court clearly stated that “[if] the company
provides all workers with the skills necessary to
perform the job,” Darden factor one supports employee
status. Keller, 781 F.3d at 809. Whether those skills
could have been learned elsewhere is irrelevant, and
the majority’s holding to the contrary flies in the face
of binding precedent.

5

The majority also cites this Court’s unpublished decision in

Janette, which quoted the same passage from the dissent in
Weary. However, this Court in Janette cited that passage as
though it were from the majority in Weary, failing to indicate
“(Clay, J., dissenting)” after its pincite. See 298 F. App’x at 474.
Thus, it is possible if not likely that this Court in Janette

mistakenly believed it was quoting binding precedent as opposed
to a nonbinding dissent. Regardless, Janette itself is an
unpublished and therefore non-binding decision. See United
States v. Yates, 886 F.3d 723, 728 (6th Cir. 2017).

32a

Darden factor eight is “the hired party’s role in
hiring and paying assistants.” Darden, 503 U.S. at

323–24. The greater the role that the hired party
plays, the more this factor supports independent
contractor status, and the greater the role that the
hiring party plays, the more this factor supports
employee status. Weary, 377 F.3d at 527.

In this case, the district court found that Plaintiffs
“ha[d] primary authority to hire and fire their staff,”
but not “sole discretion” in doing so, and that they
“ha[d] sole discretion in staff compensation matters.”
(RE 320, PageID # 20979.) Specifically, the district
court found that Defendants played a role in hiring
and firing Plaintiffs’ staff (1) by “impos[ing]
qualifications” on them, “including licensure, clean
driving records, education levels, credit history, and
minimum income to debt ratios;” (2) by requiring
Plaintiffs’ staff “to agree to a life-time non-solicitation
agreement;” and (3) by “retain[ing] some authority to
approve or disapprove of . . . agency staff selections,
above and beyond the imposition of [these]
qualification requirements.” (Id.) This role included the
ability of Defendants, without the consent of Plaintiffs,
to “fire any agency staff . . . who did not live up to the
American Family Code of Conduct.” (Id.) Based on
these facts, the district court determined Darden factor
eight to be “neutral.” (Id. at PageID # 20980.) I believe
that Darden factor eight actually supports the status of
Plaintiffs as employees.
The majority’s contrary holding, that the district
court necessarily should have determined that Darden
factor eight supported independent contractor status
because it found that Plaintiffs had “primary

33a
authority” over hiring and paying assistants, notably
lacks any supporting authority. The majority cites only
this Court’s unpublished decision in Janette, in which
this Court rejected the plaintiff’s argument that she
had “no hiring authority” because she “could have
hired assistants.” 298 F. App’x at 475. No role of the
defendant in hiring and paying the plaintiff’s
assistants was discussed in that case, and it is thus
inapposite.
The majority seems to ultimately rest its argument
on its reading of the phrase “primary authority.” But
“primary” does not necessarily mean more than anyone
else; rather, it also means first in time. See, e.g.,
Primary,
Oxford
English
Dictionary,
http://www.oed.com/ (last visited December 21, 2018)
(“Occurring or existing first in a sequence of events . .
Primary,
Merriam-Webster
Dictionary,
.”);
http://www.merriam-webster.com/
(last
visited
December 21, 2018) (“[F]irst in order of time or
development.”). And such usage by the district court
when it found that Plaintiffs had “primary authority
over hiring and paying assistants” would be entirely
consistent with the facts of this case, because
Defendants retained “some authority to approve or
disapprove” or to “override” an agent’s staff selections
after they had been made. (RE 320, PageID # 20979–
80.)
IV. Weight to be Afforded the Darden Factors
As previously discussed, “the crux of the Darden
common law agency test is the hiring party’s right to
control the manner and means by which the product is
accomplished.” Weary, 377 F.3d at 525. Accordingly,
“this Court has repeatedly held that the employer’s

34a
ability to control job performance and the employment
opportunities of the aggrieved individual are the most
important of the many factors to be considered.” Marie
v. Am. Red Cross, 771 F.3d 344, 357 (6th Cir. 2014). In
contrast, contractual labels assigned by the parties,
while “certainly relevant,” Weary, 377 F.3d at 525, are
less important. See, e.g., Keller, 781 F.3d at 804 (“[W]e
must look to see whether a worker, even when labeled
as an ‘independent contractor,’ is, as a matter of
‘economic reality,’ an employee.”); Solis v. Laurelbrook
Sanitarium & Sch., Inc., 642 F.3d 518, 522 (6th Cir.
2011) (“Whether an employment relationship exists
under a given set of circumstances is not fixed by
labels that parties may attach to their relationship . . .
.”).
Recognizing this hierarchy of the Darden factors,
the district court found that “[Defendants] and [their]
agents entered into Agent Agreements . . . indicat[ing]
that the parties intended for [the] agents to be treated
as independent contractors.” (RE 320, PageID #
20971–72.) However, the district court also found that
“[o]ther internal documents . . . indicate that
[Defendants] expected [their] sales managers to
exercise control over agents’ methods and manner of
performing their services.” (Id. at PageID # 20972.) For
instance, “[Defendants’] training manuals actually
refer to agents as ‘employees.’” (Id. at PageID # 20983.)
The district court then analyzed the remaining Darden
factors, and determined that they were “almost evenly
split between favoring employee status and favoring
independent contractor status.” (Id.). As a result, the
district court turned back to “the most important of the
many factors to be considered”—“[t]he employer’s

35a
ability to control job performance and the employment
opportunities of the aggrieved individual.” (Id. at
PageID # 20982.) (quoting Marie, 771 F.3d at 357).
The district court listed the numerous ways in
which Defendants had the ability to control and did
control Plaintiffs’ job performance and employment
opportunities. These include, but are not limited to, the
following: (1) Plaintiffs did not own a book of business;
(2) Plaintiffs did not own any policies; (3) Defendants
unilaterally reassigned policies brought in by one
agent to others; (4) Defendants could require Plaintiffs
to service policies that they did not initiate, without
any compensation; (5) Defendants did not allow
Plaintiffs to sell insurance from other companies not
financially connected to Defendants; (6) Defendants
actively discouraged and in some cases prohibited
Plaintiffs from taking on other employment, even if it
was unrelated to insurances sales; (7) Defendants
required Plaintiffs to sign a one-year non-compete
agreement, and required Plaintiffs’ staff to sign a
lifetime non-compete agreement; and (8) Defendants
trained their sales managers to believe they were
Plaintiffs’ bosses and had the authority to demand
Plaintiffs’ compliance—a belief which many acted
upon. On these facts, and in accordance with this
analysis, I agree with the district court that Plaintiffs
are employees for purposes of ERISA.
The majority’s holding to the contrary—that
Plaintiffs are independent contractors for purposes of
ERISA—is again undermined by the cases on which it
purports to rely. The majority first reasons that
“[b]ecause ERISA cases focus on the financial benefits
that a company should have provided . . . the Darden

36a
factors that most pertain to financial structure . . .
carry more weight,” as opposed to the employer’s
ability to control job performance and the employment
opportunities of the aggrieved individual. But in doing
so, the majority relies solely on this Court’s decision in
Ware, in which this Court stated that “the relative
weight given each [Darden] factor may differ
depending
upon
the
legal
context
of
the
determination.” 67 F.3d at 578. This Court in Ware
then elaborated that the traditionally important
control factors are “more relevant in the context of
copyright ownership.” Id. While it also noted that the
reverse may be true in the ERISA context—that the
traditionally important control factors may be “less
important,” id.—such speculation was merely dicta, as
Ware exclusively concerned employment status in the
copyright ownership context, and had nothing to do
with ERISA. See United States v. Hardin, 539 F.3d
404, 411 (6th Cir. 2008) (holding that language in a
prior decision was dicta because it “was not necessary
to the determination of the issue on appeal”). And “one
panel of this [C]ourt is not bound by dicta in a
previously published panel opinion.” United States v.
Burroughs, 5 F.3d 192, 194 (6th Cir. 1993). Moreover,
this characterization of the speculation about ERISA
in Ware is further supported by this Court’s decision in
Simpson v. Ernst & Young, an ERISA case decided the
year after Ware, in which this Court reaffirmed “the
employer’s ability to control job performance and
employment opportunities of the aggrieved individual
as the most important of many elements to be
evaluated” when determining that individual’s
employment status. 100 F.3d 436, 442 (6th Cir. 1996).

37a
The majority also reasons that the district court
“should have considered the parties’ express agreement
to be of greater force.” As briefly discussed above, this
reasoning is unpersuasive because the district court
properly considered the Agent Agreements as relevant
but not dispositive evidence of independent contractor
status. No greater consideration was warranted,
particularly given that the language in the Agent
Agreements is contradicted by language in other
internal documents, including Defendants’ training
manuals, and that contractual labels are particularly
susceptible to manipulation such that over-reliance on
them would “defeat the purpose” of ERISA. Shah v.
Racetrac Petroleum Co., 338 F.3d 557, 575 (6th Cir.
2003); see also Commodity Futures Trading Com’n v.
Erskine, 512 F.3d 309, 318 (6th Cir. 2008).
For all of the foregoing reasons, I respectfully
dissent.

38a
APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF OHIO
EASTERN DIVISION
[Filed: August 1, 2017]
WALID JAMMAL, et
al.,

)
)
)
Plaintiffs,
)
v.
)
AMERICAN FAMILY )
)
INSURANCE GRP.,
)
et al.,
)
Defendants.
)

CASE NO. 1:13 CV 437
JUDGE DONALD C.
NUGENT
MEMORANDUM
OPINION

This matter is pending before the Court following
a twelve day bench trial, with an advisory jury,
pursuant to Fed. R. Civ. Pro. 38(c)(1). During the
course of the trial, the Plaintiffs called the following
twenty-two witnesses: Dusty Rider; Scott Zurfluh (by
video deposition); David Wunsch (by video
deposition); Brian Edward McElroy (by video
deposition); Ralph Kaye; Mary Schmoeger (by video
deposition); Vicki Chvala (by video deposition);
Gregory Benusa (by video deposition); Lori Snapp (by
video deposition); Todd Struab (by video deposition);
Deborah Ann Miller (by video deposition); La Tunja
Jackson (by video deposition); Kathleen Tuersley;
Walid Jammal; Ian H. Altman; Richard M. Steffen;
Timothy Johnston (by video deposition); William
Nystrom; Nathan Garrett; Gerald Shope (by video
deposition); Renee Dauplaise (by video deposition);

39a
Melissa Padgett (by video deposition); and, Brian
Stetler (by video deposition). The Defendants called
the following five witnesses: Lisa Diemer; Debbie
Miller (by video deposition); Brian Stetler (by video
deposition); Jerry Benusa; and, Kurt McCabe. Both
sides submitted exhibits. Following trial, the parties
were given the opportunity to submit proposed
findings of fact and conclusions of law. (ECF #316,
317). The issues have now been fully presented.
PROCEDURAL HISTORY
Plaintiffs, Walid Jammal, and Dana LaRiche
filed this proposed class action on February 28, 2013,
against American Family Insurance Company
(Group), American Family Mutual Insurance
Company,
American Family
Life Insurance
Company, and American Standard Insurance
Company of Wisconsin. On April 5, 2013, the
Complaint was amended, adding American Family
Termination Benefits Plan, Retirement Plan for
Employees of American Family Insurance Group,
American Family 401K Plan, Group Life Plan, Group
Health Plan, Group Dental Plan, Long Term
Disability Plan, American Family Insurance Group
Master Retirement Trust, 401K Plan Administrative
Committee, and The Committee of Employee and
District Manager Retirement Plan as Defendants.1
(ECF #21). The Amended Complaint also added
named Plaintiffs Patricia McClain-Evans, Kathleen
Tuersley, Cinda J. Durachinsky, and John Vincent.
(ECF #21).
The term “Defendants” will be used to refer to all
Defendants, as well as, at times, to only the Defendant
employers.
1

40a
Defendants challenged the First Amended
Complaint through a Motion to Dismiss, which was
denied by the Court on August 9, 2013. On
September 27, 2013, the Court issued an opinion
postponing class discovery until discovery relating to
the named Plaintiffs was complete and dispositive
motions relating to those Plaintiffs had been
addressed. On June 30, 2014, the Complaint was
amended a second time. The Second Amended
Complaint added named Plaintiff, Nathan Garrett,
and eliminated Dana LaRiche, Patricia McClainEvans, and John Vincent as named Plaintiffs. (ECF
#67). Count One of the Complaint seeks declaratory
judgment affirming that Plaintiffs and purported
class members are “employees” for all purposes,
including but not limited to ERISA; declaring that
the Termination Benefits Plan is an employee benefit
plan subject to ERISA’s vesting and benefit accrual
provisions; declaring that certain plan provisions
violate ERISA; and, declaring that the Plaintiffs are
entitled to reformation of the contracts and
restitution of benefits allegedly withheld by
American Family in violation of ERISA. Count Two
seeks injunctive relief prohibiting Defendants from
continuing to mis-classify its agents as independent
contractors;
prohibiting
Defendants
from
implementing benefits plans that do not comply with
ERISA; ordering American Family to comply with
ERISA requirements with regard to the Termination
Benefit Plan; and, ordering Defendants to recalculate
and pay benefits under the proper calculation of
benefits as provided by ERISA.
Count Three is a claim of benefits under ERISA
§ 502(a)(1)(B),
seeking
payments
under
the

41a
Termination Benefit Plan in accordance with ERISA
requirements. Count Four seeks restitution, contract
reformation, and actual damages arising from
Defendants’ alleged breach of fiduciary duty arising
from their refusal to recognize that the benefits
provided under the Termination Benefits Plan were
vested and non-forfeitable pursuant to ERISA’s
requirements, and for failing to follow ERISA accrual
and vesting requirements. Counts Five and Six seek
damages and injunctive relief based on Plaintiffs
failure to provide Plaintiffs with health and welfare
benefits offered to other employees, including a
retirement plan, 401K plan, group health plan, group
dental plan, group life plan, and long term disability
plan, that are offered to those workers American
Family has classified as employees.
Defendants filed Motions for Summary Judgment
on the claims of the named Plaintiffs, Mr. Jammal,
Ms. Durachinsky, Ms. Tuersley, and Mr. Garrett.
(ECF #70, 75, 77, 79). The Court held that Ms.
Tuersley was barred from pursuing her claim for
breach of fiduciary duty under Count Four by the
statute of limitations, and otherwise denied all four
motions. (ECF #114). Plaintiffs later filed their
Motion for Class Certification, and another Motion
for Partial Summary Judgment. (ECF #119, 123).
The Court denied the Defendants’ Motion for Partial
Summary Judgment (ECF #132), and granted the
Motion for Class Certification (ECF #137).
Defendants subsequently twice sought decertification
of the class. (ECF #174, 220). Those requests were
both denied. (ECF #212, 221).
Prior to trial, the Court granted a Motion to
Bifurcate to allow for a primary determination of the

42a
threshold question: Were Plaintiffs employees or
independent contractors under ERISA? (ECF #222).
Trial of this single issue commenced on April 3, 2017,
before an advisory jury, pursuant to Fed. R. Civ. Pro.
39(c)(1). On April 18, 2017, following twelve days of
trial, the jury answered “yes” to the following
interrogatory:
Interrogatory
Please answer the following question “yes” or
“no” according to your findings:
Did Plaintiffs prove by a preponderance of the
evidence that they are employees of
Defendant American Family?
After the advisory jury returned this finding, the
parties were given a final opportunity to present
their proposed findings of fact and conclusions of law.
The Court is not bound by the advisory jury’s
determination, but finds that it comports with the
weight of the evidence presented at trial.
ANALYSIS
1. Applicable law
The question at issue, at this stage of the
litigation, is whether American Family agents were
independent contractors or employees for purposes of
the Employee Retirement Income Security Act of
1974, 28 U.S.C. § 1001, et seq. (“ERISA”). The
Plaintiffs have the burden of proving by a
preponderance of the evidence that they were
employees and not independent contractors under
ERISA.

43a
In order to determine employment status under
ERISA, courts are instructed to look at the degree to
which the hiring party retains the right to control the
manner and means by which the service is
accomplished. Nationwide Mut. Ins. Co. v. Darden,
503 U.S. 318, 320-21 (1992); Weary v. Cochran, 377
F.3d 522, 524 (6th Cir 2004). The Sixth Circuit has
consistently held that a worker can be classified as
an “employee” if the employer retains the right to
direct or control the manner and means of work, if it
does not exercise this right. See, Peno Trucking, Inc.
V. C.I.R., 296 F.App’x 449, 456 (6th Cir. 2008);
N.L.R.B. v. Cement Transp., Inc., 490 F.2d 1024,
1027 (6th Cir. 1974)(“It is the right to control, not its
exercise, that determines an employee relationship.”).
The United States Supreme Court outlined
several factors in Darden that a court should consider
when deciding whether the hiring party retains the
right to control the manner and means by which the
service is accomplished. These include:
1) the skill required;
2) the source of the instrumentalities and tools;
3) the location of the work;
4) the duration of the relationship between the
parties;
5) whether the hiring party has the right to
assign additional projects to the hired party;
6) the extent of the hired party’s discretion over
when and how long to work;
7) the method of payment;

44a
8) the hired party’s role in hiring and paying
assistants;
9) whether the work is part of the regular
business of the hiring party;
10) the provision of employee benefits; and,
11) the tax treatment of the hired party.

Darden, 503 U.S. at 323-24. These factors are nonexclusive. Ware v. United States, 67 F.3d 574, 577

(6th Cir. 1995). Although the factors listed above are
to be considered, “all of the incidents of the
relationship must be assessed and weighed with no
one factor being decisive.” Darden, 503 U.S. at 324.
The Sixth Circuit has held that an express
agreement between the parties is also a relevant
factor to be considered. See, Weary v. Cochran, 377
F.3d 522, 527 (6th Cir. 2004). Any such agreement is
considered “best evidence” of the parties intent, but is
not dispositive of the question of whether the
employer retained the right to exercise control. See,
Weary at 527; Janette v. American Fidelity Group,
Ltd., 298 F. App’x 467, 471 (6th Cir. 2008); Taylor v.
American Income Life Ins. Co., No. 1:13 CV 31, 2013
WL 2087359, at *2 (N.D. Ohio May 14, 2013). The
Sixth Circuit has also “repeatedly held that the
‘employer’s ability to control job performance and the
employment
opportunities
of
the
aggrieved
individual’ are the most important of the many
factors to be considered.” Marie v. Am. Red Cross,
771 F.3d 344, 356 (6th Cir. 2014)(quoting Janette v.
Am. Fid. Grp., Ltd., 298 F. App’x 467, 472 (6th Cir.
2008) and citing Simpson v. Ernst & Young, 100 F.3d
436, 442 (6th Cir. 1997); Trs. Of the Resilient Floor

45a

Decorators Ins. Fund v. A & M Installations, Inc., 395
F.3d 244, 249 (6th Cir. 2005); and Johnson v. City of
Saline, 151 F.3d 564, 568 (6th Cir. 1998)).
2. Evidence at Trial
American Family is an insurance company whose
business is selling insurance. Tr. 224:24-25; 225:3-5.
The testimony was undisputed that American Family
agents are core to its business. Tr. 1214:3-7, 1220:1720 (“the agents are the bedrock of American Family”)
(Steffen); Tr. 468:1-469:3 (Benusa). American Family
took in an average of $6 billion in premiums over the
last five years and, at least 85% of those premiums
were brought in through American Family agents.
Tr. 1215: 14 -1216:4 (Steffen); Tr. 469:11-469:3
(Benusa). American Family also has some employees,
classified as such, who sell insurance and interact
with customers. Tr. 1204:23-1205:9 (Steffen).
American Family does not require any specialized
knowledge or expertise to be hired as an American
Family agent. Tr. 230:5-231:11 (Zurfluh); Tr. 572:1014 (Miller); see also, Tr. 1906:15-21 (Benusa); Tr.
1242:4-7 (Steffen); Tr. 128:3-6 (Rider); Tr. 904:1-12,
907:5-18 (Jammal); Tr. 1819:9-10 (Diemer); Tr.
741:13-742:11 (Tuersley); Tr. 413:19-24 (Kaye); Tr.
1340:15-19 (Nystrom); Tr. 1625:9-1626:20 (Garrett).
The only requirements for hire are a high school
diploma and two years of general work experience in
any field. Tr. 230:5-231:11 (Zurfluh); Pl. Ex. 391, 547.
American Family prefers to hire agents with no prior
experience so they can be trained in the “American
Family way” and will not have pre-established
attitudes or procedures. Tr. 396:6-16 (Kaye); Tr.

46a
247:6-8 (Wunsch); Tr. 288:17-289:8 (McElroy); Tr.
129:1-7 (Rider).
A license to sell insurance is not required for hire.
Tr. 128:7-15 (Rider); 1340:18-19 (Nystrom). In fact,
the company’s general rule is that “any [candidate
who] has ever been a sales agent or acted as one on
behalf of any [other] Insurance Company, is not
eligible for an agency position with American Family
Insurance.” Pl. Ex. 391; Tr. 1051:14-25, 1052:17-24;
1053:3-7 (Steffen). Obtaining and maintaining a
license to sell insurance is a legal requirement
imposed by the states. Tr. 1245:22-1246:3 (Steffen),
1480:21-23 (Garrett). After hire, American agents are
required by the company to obtain and maintain a
license “in accordance with the laws of the state in
which [they] reside,” at their own expense. Tr.
1480:4-10; 1480:24-1481:5 (Garrett).
American Family teaches agents everything they
needed to know to become licensed, run an agency,
and sell American Family insurance. Tr. 128:19-25
(Rider); Tr. 1340:20-25 (Nystrom); Tr. 1198:12-16
(Steffen); Tr. 289:25-290:3 (McElroy); Tr. 572:17-20
(Miller); Tr. 1644:1-9 (Shope); Tr. 752:9-755:5
(Tuersley); Tr. 917:9-23 (Jammal); Pl. Ex. 754. All
agents are paid to attend a mandatory two to three
month long “comprehensive training program” on
how to sell and how to operate an agency. Pl. Ex. 754;
Tr. 1648:25-1649:7 (Shope); Tr. 916:14-918:4
(Jammal); Tr. 1405:7-9 (Garrett). Agents are paid a
monthly stipend and expenses during the training.
Id. American Family maintained an agent-in-training
program where it placed agents with a mentor to
train in an already established American Family
office. Tr. 1403:25-1404:5 (Garrett). During their

47a
participation in the agent-in-training program, new
agents were originally classified as independent
contractors, but were paid a month salary, required
to maintain regular hours, perform mandatory sales
activities, and to track and report all of their
activities on a weekly basis. Tr. 1406:8-20, 1407:2-24
(Garrett); Pl. Ex. 18-4. In 2013, agents-in-training
were re-classified as employees. Tr 1204: 2-14
(Steffen).
Plaintiff, Mr. Garrett has a college degree in risk
management in insurance. Tr. 1491:2-6 (Garrett);
Defs.’ Ex. 54 at p. 2. He took college courses in
commercial insurance, group benefits and health
insurance, financial management, and life insurance.
Tr. 1491:7-1492:5 (Garrett). He acquired life
insurance credits towards the Chartered Life
Underwriter (“CLU”) designation, a specialized
designation in the insurance industry, as well as the
group benefits credit. Tr. 1492:7-18 (Garrett); Defs.’
Ex. 54 at p. 2. He interned with an insurance agent
during his last two (2) years in college. Tr. 1493:81495:3 (Garrett); Defs.’ Ex. 54 at p. 3; Defs.’ Ex. 55 at
p. 1. He also earned his Series 6 and 63 securities
licenses. Defs.’ Ex. 369 at p.1. Mr. Garrett had sales
and managerial experience before he ever came to
work at American Family, and felt that he was
capable of running his own agency. Tr. 1497:6-20
(Garrett); Defs.’ Ex. 54 at p. 3. Nothing in American
Family’s training taught Mr. Garrett how to form a
relationship, gain trust, and get someone to make a
sale; those were skills he already had. Tr. 1549:141550:22 (Garrett).
Plaintiff, Ms. Tuersley received her insurance
license from Hondros College in 1995, which included

48a
courses in property, casualty, and life insurance,
approximately four years before becoming an
American Family agent. Tr. 783:14-785:1 (Tuersley).
She also had experience in sales and management
with other industries, not involving the sale of
insurance. Tr. 741:23-742:3, 785:2-6 (Tuersley).
Plaintiff, Mr. Jammal owned his own business prior
to becoming an American Family agent. Tr. 904:3-12
(Jammal). When he decided to seek other
opportunities, Mr. Jammal obtained various
insurance licenses, including life and health, after
which he received a number of work offers from
insurance companies. Tr. 904:13-905:18 (Jammal).
The Agent Agreement (“Agreement”) entered into
between the Plaintiffs and Defendant American
Family Insurance Group contained a paragraph
either identical to or substantively similar to the one
below:
It is the intent of the parties hereto that you
are not an employee of the Company for any
purpose, but are an independent contractor
for all purposes, including federal taxation
with full control of your activities and the
right to exercise independent judgment as to
time, place and manner of soliciting
insurance, servicing policyholders and
otherwise carrying out the provisions of this
agreement. As an independent contractor you
are responsible for your self-employment
taxes and are not eligible for various
employee benefits such as Workers and
Unemployment Compensation.

49a
Defs.’ Ex. 57 at p. 4; Defs.’ Ex. 132 at p. 4; Defs.’ Ex.
206 at p. 4.
The Agreement also provides that:
Rates, rules, regulations and all provisions
contained in the Company’s Agent’s Manuals
and all changes to them shall be binding upon
you. If any inconsistency or ambiguity exists
between this agreement and such rate, rule,
regulation, provision or other statement or
statements, whether written or oral, this
agreement shall control.
Defs.’ Ex. 57 at p. 8; Defs.’ Ex. 132 at p. 8; Defs.’ Ex.
206 at p. 8.
There is no limit on the duration of the agency
relationship. Jt. Ex. 1-4 § 6.g; Tr. 576:17-21 (Miller);
Tr. 744:4-11 (Tuersley). American Family describes
the agency position as a “career” position. Pl. Ex. 7541; Pl. Ex. 425; Tr. 912:9-16 (Jammal); Tr. 743:18744:16 (Tuersley).
American Family pays its agents in commissions.
Tr. 189:2-6 (Rider); Tr. 808:3-6 (Tuersley); 963:12-18
(Jammal); 1346:5-7 (Nystrom); 1577:13-15 (Garrett);
1888:10-13 (Miller); 1912:19-22 (Benusa). It
sometimes also paid advance commissions to newer
agents, which were then required to be re-paid. See,
Tr. 1909:1-15 (Benusa); Tr. 791:3-12 (Tuersley).
American Family does not provide agents with
vacation pay, holiday pay, sick pay, or paid time off.
Agents are not eligible for the same pension or
retirement plans offered to American Family
employees, and they are required to obtain and pay
for their own insurance. Tr. 810:21-811:13 (Tuersley);

50a
1251:15-17 (Steffen); 1587:6-20 (Garrett); 1915:4-6
(Benusa); Tr. 644:6-21 (Miller). The testimony
showed that agents were offered an “extended
earnings” benefit based on their years of service. Tr.
1247:8-1249:7 (Steffen); 1388:10-20 (Nystrom);
1587:21-1588:23 (Garrett); 1915:7-1917:10 (Benusa);
Defs.’ Ex. 57 at p. 5; Jt. Ex. 1-7. This plan offered a
lifetime annuity, and was described to the agents as a
retirement plan. Tr. 292:2-12 (McElroy); Tr. 574:15575:5 (Miller); Tr. 746:3-20 (Tuersley); Tr. 129:16-17
(Rider); Tr. 1341:7-9 (Nystrom). Plaintiffs presented
expert testimony from Mr. Altman during which he
provided his opinion that the extended earnings or
termination benefits outlined in the 1993 and 2003
Agent Agreements both have the characteristics of a
retirement or pension plan. Tr. 1019: 18 -1024:5
(Altm12). American Family reported the extended
earnings plan as one of its “Defined Benefit Plans” in
the annual statement it filed with the insurance
regulators. Pl. Ex. 976-29; P. Ex. 977-29.
The Plaintiffs testified that they filed their taxes
as if they were independent contractors, and that
they deducted business expenses as self-employed
business owners. See, Tr. 822:23-823:5, 827:15-828:4
(Tuersley);
914:9-11,
989:9-17,1001:1-1002:21
(Jammal); 1590:9-1591:13, 1593:5-1594:2 (Garrett).
Mr. Garrett took tax deductions for business
expenses such as advertising, car and truck,
commissions and fees paid, depreciation, insurance
payments, legal and professional services, office
expense, rent of business property, repairs and
maintenance, supplies, taxes and licenses, business
travel, meals and entertainment, utilities, wages paid
to employees, postage, business telephone, dues and

51a
subscriptions, and training. Tr. 1595:9-1598:8
(Garrett); Defs.’ Ex. 41 at pp. 7-8; Defs.’ Ex. 42 at pp.
3-4; Defs.’ Ex. 43 at pp. 6-7; Defs.’ Ex. 44 at pp. 2, 11;
Defs.’ Ex. 45 at pp. 1, 9; Defs.’ Ex. 46 at pp. 1, 9;
Defs.’ Ex. 47 at pp. 1, 10. In 2005, Tuersley took tax
deductions for business expenses in the amount of
$86,373. Tr. 832:5-7 (Tuersley); Defs.’ Ex. 197 at pp.
9-10, 15.
The company calls its agents “business owners”
and “partners” and tells new agents they will be
“agency business” owners and that they need to
“invest” in “their business.” Tr. 291:19-23 (McElroy);
Tr. 574:4-14 (Miller); Tr. 2090:4-15 (McCabe); Tr.
909:11-910:24, 920:11-25 (Jammal); Tr. 742:18-743:5
(Tuersley); Tr. 1404:6-12, 1413:5-7 (Garrett); Tr.
1943:8 (Benusa); Tr. 2085:16-19 (McCabe). Agents do
not own a book of business; there is no book of
business separate and distinct from American
Family’s business. Tr. 1908:8-10 (Benusa); Tr. 291:814; Tr. 478:20-479:6; Tr. 210:2-3, 10-25; 211:8-14; Tr.
572:25-573:22 (Miller); Tr. 401:22-403:18 (Kaye); Tr.
211:11-14; Pl. Ex. 438-2. Mr. Wunsch testified that
agents did not own their own policies. Tr. 247: 16
(Wunsch). American Family retains “total control
over where those policies go and to what agent.” Tr.
1160:18-23 (Steffen). Even during the agency
relationship, the company retains the right to
transfer customers to other agents at its own
discretion, at any time. Tr. 1156:20-1161:2 (Steffen);
Jt. Ex. 1-4, § 6.e.; Tr. 478:20-479:6 (Benusa).
An American Family agent cannot sell their
agency. Tr. 2082:16-17, 2086:6-11 (McCabe).
American Family prohibits agents from assigning
any rights to income from their agency. Jt. Ex. 1-4,

52a
§ 6.c. Customers brought in and serviced by agents
are considered American Family customers who are
merely being serviced by the agents. Pl. Ex. 438-2. It
is undisputed that American Family agents are
prohibited from selling competitive insurance
products. Tr. 745:12-746:2 (Tuersley). Agents must
work exclusively for American Family. Jt. Ex. 1-2
§ 4a; Tr. 2082:18-21 (McCabe); Tr. 903:16-25
(Jammal); Tr. 745:12-14 (Tuersley); Pl. Ex. 532-10.
They may not sell another company’s policy “[e]ven if
the insurance sold by that carrier isn’t sold by
American Family.” Pl. Ex. 532-10; see also, Tr.
745:12-746:2
(Tuersley).
American
Family
discourages additional employment by agents even if
it is unrelated to the insurance industry, and has
threatened to terminate agents in order to persuade
them to leave a second job. Tr. 133:15-21 (Rider); Tr.
959:15-960:7 (Jammal). Agents are also required to
agree to a one-year non-solicitation provision
prohibiting them from contacting any customer
credited to their account if they separate from
American Family. Jt. Ex. 1-5, § 6.k. Any investment
an agent makes to grow his client base is not
recoverable if he or she separates from American
Family. Tr. 1644:10-24 (Shope); Tr. 973:18-19
(Jammal); Tr. 1348:25-1349:7 (Nystrom).
American Family agents must work out of an
agency office and may not work from home. Tr.
921:11-15 (Jammal); Tr. 750:24-751:3 (Tuersley). Mr.
Jammal worked out of a building he had purchased.
Tr. 923, 933:8-9, 987:3-24 (Jammal). He rented out
space in the building to other entities. Tr. 990-991
(Jammal). Ms. Tuersley also had her own office. Tr.
818:14-17 (Tuersley). Mr. Garrett worked out of his

53a
office in Pittsburg, Kansas. He could have sold
insurance anywhere in the State of Kansas from that
office. Tr. 1576:12-15 (Garrett). There was testimony
that American Family assigns agents to a particular
geographic district and that they have to maintain
their office within that district. Tr. 751:16-21
(Tuersley). There was also testimony that American
Family is regularly involved in its agents’ office
selections and retains a right to approve or
disapprove where an agent’s office is located. Tr.
401:2-6 (Kaye); Tr. 750:19-7511:25 (Tuersley); Tr.
921:11-924:6 (Jammal); Tr. 140:12-143:5 (Rider); Pl.
Ex. 210-211. American Family has a general policy
that agents should locate their offices at least one
mile apart. Tr. 666:7-16; 667:4-16 (Jackson); Tr.
751:12-752:5, 820:2-15 (Tuersley). There was
testimony indicating that American Family enforced
its right to approve locations in some instances but
not in others. For instance, Mr. Rider testified that
American Family would not allow him to open a
satellite office in a neighboring town. (Tr. 142:22143:4 (Rider). American Family also told Mr. Jammal
he could not use a building he had decided to
purchase, and that he had to find a different location.
Tr. 922:14-924:6 (Jammal). However, when Plaintiff,
Ms. Tuersley asked American Family to tell another
agent to re-locate because they were within a mile of
her office, American Family told her it did not have
the power to do so. Tr. 818:15-25, 820:2-25, 822-823:9
(Tuersley); Def. Ex. 228, 229. Also Ms. Diemer
testified that she picked her own office location and
no one from American Family had any input on her
decision. Tr. 1833: 1-7 (Diemer).

54a
Agents are required to comply with American
Family’s code of ethics. Tr. 803:24-805:1 (Tuersley);
1486:9-11 (Garrett). American Family monitored
agents’ emails and computer usage. Tr. 925:8-20
(Jammal); Tr. 753:23-754:2 (Tuersley); Tr. 145:22146:4 (Rider); Tr. 673:21-674:1 (Jackson); Pl. Ex. 5327. American Family retained the right to block
agency access to websites, including on-line retailers,
barred non-American Family computers from
accessing the agents’ internet, and barred agents and
agency staff from using American Family issued
computers to access their personal email accounts.
Tr. 924:24-925:10 (Jammal); Pl. Ex. 532-8. Managers
could use the American Family computer system to
track and monitor agent activity on a daily basis. Tr.
1663:5-15 (Shope). Ms. Tuersley testified that other
insurance agencies do not retain the right to access
their independent agents’ computer systems or
monitor agents’ email. Tr. 754:3-8 (Tuersley). When
an agent’s relationship with American Family is
terminated, American Family shuts off computer
access and collects the hardware. Tr. 146:9-18
(Rider); Tr. 775:24-776:6 (Tuersley). If agents do not
return their computer, American Family can declare
their retirement benefits forfeited and stop payment.
Jt. Ex. 1-5, § 6.l.2; Jt. Ex. 1-7, § 6.u.; Tr. 146:9-18
(Rider).
Agents testified that they hired their own staff,
paid the staff’s wages, and decided whether to offer
employee benefits to their staff. See, Tr. 987:25-988:9
(Jammal); Tr. 806:11-18, 807:3-20, 811:14-16
(Tuersley); Defs.’ Ex. 369, at p. 1; 1523:7-21, 1533:4-8,
1542:9, 1622:13-17 (Garrett); Tr. 1834:14- 1835:15
(Diemer). American Family provides advertisement

55a
for agency staff positions on its website, and it will
recruit and screen potential agency staff for the
agents. It also provides subsidies for some agents to
help them hire staff. Pl. Ex. 756-1, 756-8; Tr.
1394:17-1395:3 (Nystrom). A former manager, Mr.
McElroy testified that managers could tell agents
what staff they could hire. Tr. 298: 14-17 (McElroy).
There was testimony indicating that American
Family retained the right to approve the hiring of
staff, and to fire agency staff. Tr. 584:17-19 (Miller);
Tr. 926:19-927:8, 928:6-8 (Jammal); Tr. 758:20-760:16
(Tuersley); Tr. 156:4-157:1 (Rider); Pl. Ex. 434; Tr.
340:7-25 (McElroy). American Family admits that
they retained these rights with regard to appointed
staff. Tr. 1161:7-1162:11, 1164:6-14 (Steffen).
Appointed agency staff are those staff who interact
with customers. Tr. 1154:11-18 (Steffen); 1834:17-20
(Diemer). There was conflicting testimony as to
whether American Family had any role in hiring nonappointed staff. See, Tr. 1827:9-16 (Diemer); Tr.
926:19-927:8 (Jammal); Tr. 1877:9-15 (Miller).
Managers were evaluated based on whether their
agents hired a certain number of staff. Pl. Ex. 328-1;
Pl. Ex. 884; Tr. 1418:2-16, 1419:17-1420:9 (Garrett).
American Family imposes qualification standards on
agents’ appointed staff. Tr. 1161:7-1162:11, 1164:6-14
(Steffen). State insurance law also imposes some
licensing requirements on agency staff. Tr. 1580:111582:23 (Garrett); Defs.’ Ex. 62. American Family
required that appointed staff be licensed. It also
imposed minimum education standards, driving
record requirements, and credit score requirements
on agency staff. Pl. Ex. 533-1; Tr. 1343:9-1344:3
(Nystrom). After this lawsuit was filed, American
Family eliminated the additional (non-licensing)

56a
criteria. Tr. 2118:21-22 (McCabe). All agency staff are
required to abide by American Family’s Code of
Conduct, and American Family retains the right to
fire any staff for a breach of that Code. Pl. Ex. 532;
Tr. 927:23-928:1 (Jammal). Appointed staff are
required by American Family to sign a non-compete
agreement prohibiting them forever from soliciting
any policyholder credited to their agency’s account.
Tr. 1155:1-1156:11 (Steffen).
It is undisputed that American Family requires
agents to pay for many of the tools of their trade,
including some of the tools issued by the company.
District Manager Kurt McCabe testified that after he
became a District Manager, the agents in his district
were responsible for purchasing items used to run
their agencies, such as their offices, office supplies,
telephones, office furniture, and automobile. Tr.
2005:14-2006:15 (McCabe). With the exception of a
computer that American Family issued him, Mr.
Garrett testified that he paid for all the other
equipment he used. Tr. 1490:6-9 (Garrett). This
included business expenses such as office rent,
equipment, furniture, telephones, vehicle expenses,
office supplies, utilities, employee wages, and some
advertising. Tr. 1578:3-21 (Garrett). Ms. Tuersley
testified that she paid for expenses associated with
her agency, including setting up telephone lines,
marketing, advertising, lunches or centers of
influence, car, gas, utilities, postage, rent, legal and
professional services, taxes, insurance licenses, client
entertainment, business donations, cleaning, signage,
professional publications and seminars. Tr. 828:20833:10 (Tuersley).

57a
The testimony was undisputed, that American
Family provided all brochures, applications,
letterhead, forms, products, marketing materials,
and websites. Tr. 752:15-753:1, 754:10-25 (Tuersley).
American Family also provided agents with “access to
online tools” and “all branded resources,” including
the above-mentioned resources, office signs, the
brand and logo, the benefit of national and regional
advertising and marketing campaigns, and social
media content. Tr. 1649:18-1650:2 (Shope); Pl. Ex.
754-1. American Family also provided agents with a
call center that was “always available to agents and
customers” for 24/7 customer service. Pl. Ex. 754-1.
Mr. Jammal also testified that American Family
retained the right to approve any advertising. Tr.
988:12-989:2 (Jammal). Company representatives
testified that American Family subsidizes 50% of the
agent’s cost of marketing. Tr. 1078:6-12 (Steffen); Tr.
575:11-16 (Miller); Tr. 1647:23-1650:2 (Shope).
American Family also provided the computers
and software agents are required to use. Tr. 145:1421 (Rider); Tr. 924:8-21 (Jammal); Tr. 752:21-754:2
(Tuersley). There was some testimony that although
American Family required use of the provided
computers, it required the agents to lease the
computers from American Family on a long-term
lease at up to $300/month. Tr. 924:7-925:7 (Jammal);
Tr. 146:2-4 (Rider). American Family provides each
agent with their own American Family agent website
and email address, which they are required to use, as
well as other social media. Tr. 1119:24-1120:10
(Steffen). Agents are not permitted to use their own
website, emails, or social media. See, Tr. 925:8-20
(Jammal); Tr. 1119:24-1120:10 (Steffen); Tr. 753:23-

58a
754:2 (Tuersley); Tr. 673:21-674:1 (Jackson); Pl. Ex.
532-7.
There was testimony indicating that American
Family reimbursed agents for certain staffing and
marketing expenses. Tr. 1078:6-12 (Steffen); 1498:1025, 1578:12-13 (Garrett); Tr. 1346:16-20 (Nystrom).
Mr. McElroy testified that American Family would
enter into subsidy programs for new agents to pay for
all of their office expenses, including phone, power,
electric, staff expense, and a monthly stipend for up
to four years. Tr. 292:12 -293:2 (McElroy). He also
testified that this program allowed American Family
to exert additional control over the agents: “as long
an agent owes American Family money, we own
them. We can tell them exactly what to do.” Tr.
293:6-22 (McElroy). There is evidence that this debt
could take years to pay off, and that some agents
never reached a point where it was fully paid. Tr.
293:10-22 (McElroy). There was also testimony that
American Family would coerce agents into taking
loans they did not need so they would be in debt to
the company. Tr. 969:5-970:6 (Jammal).
There was evidence presented that American
Family has invested significant amounts of money to
train, supply, and support its agents. American
Family’s sales department has one thousand
employees and entire departments that exist solely to
support its 2,800 agents. Tr. 229:17-20; Tr. 1926:7-14,
1927:11-18 (Benusa); Tr. 458:17-459:17 (Chvala); Pl.
Ex. 754-1. Mr. Steffen testified that “millions and
millions of dollars” are spent on research and data to
assist agents in servicing American Family
customers. Tr. 1062:10-1063:8; 1064:23-1065:3
(Steffen). American Family pays its agents about

59a
13.5% of its total revenue. Mr. Steffen testified that
percentage would not change if they were to be
considered employees, but would have to include
costs that are now born by the agents themselves,
including the cost of paid days off, and insurance. Tr.
1202:2-18 (Steffen).
American Family agents are assigned to a district
and a geographical territory, and must report to an
Agency Sales Managers. Tr. 227:4-228:25 (Zurfluh);
Tr. 760:24-761:1 (Tuersley). American Family
employs between 140-200 managers to manage
approximately 3,000 agents. Tr. 1198: 22-25 (Steffen);
Pl Ex. 1065-3; Pl. Ex. 1064-5. These Agency Sales
Managers, previously referred to as “District
Managers” (“managers”) are employees of American
Family. Tr. 1071:13-18, 1199:24-25 (Steffen);
Although they are employees, managers are given an
expense account to run promotions and incentives for
their agents, and are required to pay for their own
rent and assistants from that account. Although they
are employees they are also responsible for hiring
their own assistants. Tr. 1200: 20- 1201:11 (Steffen).
The Company describes the manger’s role as a
“strategic business partner who ensures alignment
with corporate goals through the successful and
sustainable implementation of agency business
plans.” Pl. Ex. 323; Pl. Ex. 329; Pl. Ex. 330 (emphasis
added). The manager’s objective is to “engage agents
in corporate strategy and direction” and “influence
desired results.” Id. The “desired results,” are those
set by American Family, not the agents. Tr. 618:3-5
(Miller); Tr. 1335:3-23 (Nystrom); Tr. 166:19-168:2
(Rider); Tr. 938:24-939:21 (Jammal). American
Family expects a manager’s “key competencies” to

60a
include: “Develops and executes plans to achieve
results,” “Achieves desired results,” “Communicates
clear expectations,” and “Holds people accountable
for performance.” Pl. Ex. 338, Pl. Ex. 329, Pl. Ex. 330.
Agency Sales Managers report to State Sales
Directors, who report to one of three Regional VicePresidents, who, in turn, report to the Chief Sales
Officer. Tr: 227:4-228:25 (Zurfluh). Other than their
agents, American Family classifies everyone in its
sales force chain as employees. Tr. 228:11-229:3; Tr.
469:11-14 (Benusa); Tr. 571:24-572:2 (Miller).
According to the managers’ training policies, the job
of this sales force is to implement and meet American
Family’s strategic plan for production (sales) and
customer service goals. Pl. Ex. 338, 323, 329, 330; Tr.
1066:1-12, 1067:4-8 (Steffen); Tr. 613:8-16 (Miller);
Tr. 294:10-295:16 (McElroy); Tr. 226:9-227:3
(Zurfluh). This hierarchy was established to ensure
that agents sell the mix of business American Family
prefers to sell, and that they interact with customers
in the way American Family wants them to interact.
Tr. 227:4-228:25; Tr. 280:4-24 (McElroy); Tr. 612:1625; 613:8-16 (Miller), Pl. Ex. 338, 323, 329, 330, 18,
19, 328, 660; Tr. 2106:1-4; Tr. 2110:3-10 (McCabe);
Tr. 1130:25-1131:24 (Steffen).
There was conflicting testimony as to whether
agents had control over the methods and means of
reaching the production, profitability, and service
expectations established by American Family. Tr.
1188:15-1189:4 (Steffen); 1830:23-1831:2 (Diemer);
Tr. 1349:25-1350:1 (Nystrom)(“you have to do exactly
what . . . corporate tells you to do.”); Tr. 298:11-17
(McElroy)(“We had direct control of all their
activities.”); Tr. 1639:6-21 (Shope)(“I would say they

61a
retain a great deal of authority. . . I’d say they
control.”). Ms. Diemer testified that American Family
never told her she needed to sell insurance in a
certain way, or using a certain technique. Tr. 1846:69 (Diemer).
American Family’s witnesses agreed that the job
of the managers is to manage the agents. Tr. 1067:251068:14 (Steffen); Tr. 508:7-9 (Benusa); Tr. 2080:222081:13 (McCabe). American Family’s definition of
the Agency Sales Manager’s job responsibilities
makes clear that their role is to manage the agents
and implement American Family’s sales plan at the
agency level. Tr. 612:16-25; 613:8-16 (Miller); Pl. Ex.
338, Pl. Ex. 323, PX 329, Pl. Ex. 330.
There was testimony suggesting that managers
did not simply track that agents met the numbers
they were required to meet, but were also involved in
the agents’ day to day work, and influenced how
agents met those goals. Tr. 581:8-16, 600:5-13
(Miller); Tr. 2097:4-15 (McCabe); Tr. 300:2-10
(McElroy). Mr. Kaye testified that American Family
retains the right to control how agents do business.
Tr. 403:15-24; Tr. 404:2-13 (Kaye). Some agents
testified that the managers were very forceful and
demanding, and threatened agents to achieve
compliance. Tr. 764:19- 765:11 (Tuersley). Ms.
Tuersley testified that her manager even ordered her
to have his name on her premium trust bank account.
Tr. 764:12-22 (Tuersley). American Family agent, Ms.
Diemer testified that she viewed her manager as a
business partner, and that he did not tell her what to
do, how to run her agency, or how to go about selling
insurance. Tr. 1824: 15-23 (Diemer).

62a
Mr. McElroy testified that managers could tell
the agents what hours they needed to be open. Tr.
298:11-17 (McElroy). There was testimony that
American Family has a rule that agencies must be
open and staffed by someone who can service
customers during normal business hours. Tr. 113:1213; Tr. 2262:13-21; Tr. 339:6-10 (McElroy); Tr.
583:14-584:16 (Miller); Tr. 1666:5-14 (Shope).
Plaintiffs also testified, however, that they could
have their own employees run their office in their
place, at their discretion. Tr. 930:23-25, 996:10997:12 (Jammal). Ms. Diemer testified that no one
from American Family had ever told her when she
had to have her agency open. Tr. 1837: 11-23
(Diemer). Managers could direct agents on when they
could close the agency and Plaintiffs testified that
agents could take no vacation without approval. Tr.
307:25-308:15 (McElroy); Tr. 166:1-5 (Rider); Tr.
1342:24-1342:1
(Nystrom);
Tr.
960:19-961:3
(Jammal); Tr. 756:19-21 (Tuersley).
If an agent tried to implement “summer hours,”
closing the agency early on Fridays, they could and
would be reprimanded. Tr. 1427:10-1431:8 (Garrett);
Tr. 583:14-584:16 (Miller); Tr. 143-23:144:4 (Rider).
Managers were required to do drop-ins to verify that
agents had their offices open during regular business
hours. Tr. 339:16-340:3 (McElroy); Tr. 932:4-22
(Jammal); Tr. 756:10-758:11 (Tuersley); Pl. Ex. 139140. Ms. Tuersley testified that when a manager
dropped by her office while she was on vacation he
took over her office, answered her phone, and
requested her password from her office staff. Tr.
756:25-758:11 (Tuersley). Ms. Diemer, however,
testified that she has occasionally taken vacations,

63a
personal days, or sick days. She testified that she did
not need to obtain permission from her manager for
vacations, but she did inform him as a matter of
courtesy. Tr. 1838:3-18 (Diemer).
Agents received annual reviews and
production goals they were required to reach.

had

Tr. 866:4-6 (Tuersley); 1466:4-6 (Garrett); Tr.
766:4-18 (Tuersley); 948:3-20 (Jammal). Although
some American Family witnesses testified that
agents were allowed to set their own production goals
and were not required to prepare business plans, (Tr.
1127:9-22 (Steffen); Tr. 1731:20-24 (Dauplaise)),
there was significant evidence indicating that agents
were
required
to
develop
business
plans
incorporating required initiatives; that managers
could revise those plans; that the plans had to be
approved by upper management; and, that, once
approved, the plans, including any edits made by
management, were binding on the agents. Pl. Ex.
204; Tr. 579:8-580:16, 586:3-5, 615:24-616:4 (Miller);
Tr. 1667:21-1169:2 (Shope); Tr. 938:19-940:19
(Jammal); Tr. 768:7-8 (Tuersley); Tr. 1335:3-1336:2
(Nystrom); Tr. 166:19-168:2 (Rider); Pl. Ex. 338;
307:14-21 (McElroy).
American Family requires agents to meet certain
production, profitability, and service expectations. Tr.
1187:14-24 (Steffen); 1216:12-20 (Steffen); 1291:231292:2 (Steffen); 1984:6-11 (Benusa). Agents were
required to comply with deadlines and other
requirements. Tr. 940:22-942:20 (Jammal); 947:23949:17 (Jammal). The manager’s job depends on the
results of the agents and how much the agents sell.
Tr. 319:4-320:2 (McElroy); Tr. 660:9-19 (Jackson). If

64a
the agents in a manager’s district did not perform,
the manager faced termination. Tr. 212: 5-11
(Zurfluh); Tr. 319:4-320:2 (McElroy).
At American Family, an agent could run a solid,
profitable agency but still risk termination if he or
she did not grow at the pace American Family
demanded or grew at a slower pace than other agents
in the district. Tr. 1122:25-1123:17, 1125:6-18,
1130:1-10 (Steffen); Tr. 766:4-8 (Tuersley). American
Family frames its growth demands as “production”
requirements, but in reality upper-level managers
could just direct the Agency Sales Managers to “find
the bottom three [agents] in each district … and then
issue performance letters to them” to start the
termination process. Tr. 618:22-619:13 (Miller).
Numbers could be manipulated “depending on which
numbers [the manager] wanted to pull out of the
hat,” and this process generally targeted veteran
agents with established agencies to persuade them to
retire. Tr. 618:22-619:13 (Miller). Up through at least
2013, production requirements were based on the
number of new applications filed, not on the
premiums brought in by an agents, and agents had to
meet their district’s goals for new quotes and
applications or be put on a performance improvement
plan, regardless of much premium they brought to
the company. Tr. 1125: 25-1126:12 (Steffen).
American Family did not dispute that they can
require agents to expand their business and sell
certain specific mixes of policies. Tr. 1122:25-1123:17,
1125:6-18, 1130:1-10, 1131:20-24, 1132:19-1133:1
(Steffen); Tr. 288:3-6 (McElroy); Tr. 765:16-766:3
(Tuersley); Tr. 1417:16-22 (Garrett).

65a
Plaintiffs presented undisputed testimony that
agents were asked to provide sales reports, visit
clients homes, complete business plans and produce
other documents, as well as to attend training
sessions. Pl. Ex. 539-1, 759; Tr. 736:5-740:9
(Tuersley). There was testimony that agents were
required to do a certain number of personal
insurance reviews each week and to report their
activities to their managers. Tr. 1344:20-1345:2
(Nystrom); Pl. Ex. 56-2; Tr. 949:2-17 (Jammal);
1408:4-6 (Garrett). They were also encouraged to
follow certain activities American Family considered
to be “best practices”. Pl. Ex. 204-25; Tr. 1003:251094:13 (Steffen). Although agents were told these
best practices were voluntary, their managers’
compensation was tied to the agent’s compliance with
those practices. As a result, many managers
implemented mandatory programs for their agents to
increase compliance with these standards. Pl. Ex.
530; Pl. Ex. 204: Tr. 1095:13-23 (Steffen). Mr.
Nystrom testified that these practices were “just
another way of controlling my activities in – in the
agency.” He also testified that he would have opted
out if it were voluntary. Tr. 1339:4-14 (Nystrom).
Agents were required to attend sales and training
meetings.
Tr.
733:18-20
(Tuersley);
736:2-4
(Tuersley); 739:24-740:20 (Tuersley); 916:14-18
(Jammal); 935:6-17 (Jammal); 937:19-24 (Jammal);
1408:7-13 (Garrett); Pl. Ex. 262, 193-194, 196-197,
199-201. Agents were required to participate in
calling nights and other marketing activities, such as
manning a booth at a sporting event. Tr. 337:1-338:3,
359:5-360:1 (McElroy); 582:13-583:13 (Miller); Tr.
761:22-25 (Tuersley); Pl. Ex. 262; Tr. 951:17-Tr.

66a
955:15 (Jammal); Tr. 1413:23-24 (Garrett). Agents
were often required to complete daily or weekly
activities reports. Tr. 581:8-582:8 (Miller); Pl. Ex. 562; Pl. Ex. 262; Tr. 940:20-942:20; 947:20-951:3
(Jammal); Tr. 761:18-763:18, 767:20-768:6 (Tuersley);
Tr. 1344:20-23 (Nystrom); Tr. 1407:12-14 (Garrett);
Pl. Ex. 203-8. They were also told what types of
policies they had to sell and which to prioritize. Tr.
288: 3-6, 298:14-17 (McElroy): Pl. Ex. 203; Tr.
1131:20-24. They were required to adopt specific
sales techniques and participate in sales campaigns
directed at particular types of policies. Tr. 164:11165:14; 166:3-12 (Rider)(he was told: “everybody is
going to do this,” “you will do it,” and “you don’t have
a choice.”) ; Pl. Ex. 913-21; Pl. Ex. 914-142; Pl. Ex.
916-61; Pl Ex. 931-1723; Pl Ex. 935-98, 99.
Agents were required to attend monthly district
meetings. Tr. 341:12-18 (McElroy); Tr. 587:3-9
(Miller); Tr. 1669:6-20, 1672:9-24 (Shope); Tr. 935:6936:6, 937:19-938:18 (Jammal); Tr. 735:16-736:4,
768:24-769:1 (Tuersley); Tr. 486:18-487:24 (Benusa);
Pl. Ex. 531, 539, 185-187, 192-194; 198; Tr. 216:19217:12 (Zurfluh). Managers communicated to agents
that these district meetings were mandatory, even if
they interfered with sales appointments, and agents
were reprimanded if they showed up late. Pl. Ex. 531,
539, 759, 185-188, 192-194; 196-198; 1672:9-24
(Shope); Tr. 935:6-936:6 (Jammal); Tr. 216:19-217:12;
732:19-740:20 (Tuersley); 159:25-160:8 (Rider); Tr.
287:7-16 (McElroy).
Agents were required to do property reinspections or surveys, and personal insurance
reviews. Tr. 766:9-18 (Tuersley); Tr. 949:2-9
(Jammal); Tr. 1408:4-6 (Garrett); Tr. 1101.17-1102:5

67a
(Steffen); Pl. Ex. 262-2. Property re-surveys were
unrelated to selling or servicing insurance and were
also performed by outside hired third-parties. Tr.
961:11-962:14 (Jammal); Tr. 1345:5- 1346:4
(Nystrom); Tr. 679:3-680:2 (Jackson). Agents were
also sometimes required to accept transferred policies
and to service those policies for a year without
compensation, and at a reduced commission
thereafter. Tr. 2084:3-17 (McCabe); Tr. 955:25-956:25
(Jammal). Agents could also be required to service
policies that would never be counted toward their
commission base. Tr. 1159:4-11 (Steffen); Tr. 956:8957:13 (Jammal).
There was testimony that many of these tasks
were part of an agent’s sales and service obligations
and some were required under the Agreement. Tr.
1134:1-1136:17,
1178:4-1180:10,
1242:17-1245:5
(Steffen); 1485:15-20, 1520:19-1521:10, 1531:19-22,
1536:18-22 (Garrett); Defs.’ Ex. 68 at 8; Defs.’ Ex. 57
at p. 2; Defs.’ Ex. 132 at p. 3; Defs.’ Ex. 206 at p. 3.
There was conflicting testimony as to whether
agents would suffer consequences for disregarding
American Family requests. Tr. 732:19-736:4, 857:21858:4 (Tuersley); Tr. 971:4-972:14 (Jammal); Tr.
1418:4-16, 1422:25-1423:16, 1426:10-15, 1539:51541:11, 1541:19-1542:9, 1543:18-20 (Garrett); Tr.
359:6-360:6 (McElroy); Tr. 1382:9-1383:10 (Nystrom);
Tr. 1831:10-15 (Diemer); Tr. 1879:25-1880:10,
1885:17-1888:9 (Miller); Tr. 1911:8-1912:4 (Benusa);
Tr. 2026:8-17 (McCabe); Pl. Ex. 539-1. American
Family witnesses claimed that many of the above
activities were “expected” but not mandatory. Tr.
674:10-13 (Jackson). They also claim that no
American Family agent has ever been terminated for

68a
failing to do any of these activities. Tr. 1256:31257:22 (Steffen); Tr. 2020:6-19 (McCabe).
Plaintiffs presented testimony that showed
American Family managers regularly threatened the
agents with termination to obtain compliance, and
some terminated employees attributed their
termination to a failure to follow the “suggested”
policies. Tr. 1646:25-1647:6, Tr. 1674:10-23 (Shope);
Tr. 123:23-124:5, 159:16-160:8, 171:4-8 (Rider);
1336:3-1337:13, 1347:1-1348:5, 1391:12-18 (Nystrom);
932:23-933:24 (Jammal); Tr. 765:1-11 (Tuersley); Pl.
Ex. 761-762. Plaintiffs testified that they were
punished whenever they suggested that their
manager was exerting control in a manner
inconsistent with their independent contractor
status. Pl. Ex. 140, Tr. 1450:9-1455:24, 1459:11467:13 (Garrett); Pl Ex. 761-762; Tr. 769:6-777:7
(Tuersley); Tr. 971:4-972:24 (Jammal). Even
managers were threatened or disciplined if they
refused to exert high levels of control over their
agents. Tr. 618:1-641:23, 570:1-17 (Miller); Pl. Ex.
340-341.
Managers risked no discipline or termination for
telling agents what to do. Tr. 502:13-16 (Benusa); Tr.
1646:25-1647:6 (Shope); Tr. 581:8-582:8 (Miller); Tr.
336:15-21, 338:22-339:5 (McElroy). Under American
Family’s system, if the managers did not exert
control or failed to meet their sales, retention, and
sales capacity targets, they risked termination. Tr.
2109:24-2110:2 (McCabe); Tr. 1736:6-9 (Dauplaise);
Tr. 618:12-21 629:19-22; 627:17- 628:3; 630:1-632:19;
Pl. Ex. 340-2; Pl. Ex. 341 (Miller); Tr. 319:4-320:2
(McElroy). Shope, a former manager and long-time
agent, explained, “I was threatened when I wouldn’t

69a
go threaten [agents for noncompliance].” Tr. 1647:6,
1646:20-21 (Shope) (“you’re threatened with it all the
time, that your contract will be terminated.”). Mr.
McElroy testified that “American Family told us that
we control these agents’ lives and if you told them to
jump they had better jump.” Tr. 284:13-287:16
(McElroy).
American Family did not train managers to treat
agents as independent contractors, or even make
managers aware that agents were independent
contractors. Tr. 1769:12-1773:6 (Padgett); Tr. 475:20476:22; 477:24-478:5; 481:12-482:5 (Benusa); Tr.
296:1-297:12 (McElroy); Tr. 1577:16-1578:19; Tr.
1650:18-1651:18; 1652:3-5 (Shope); Tr. 2077:152079:3 (McCabe). Chief Sales Officer Gerry Benusa
testified that it would be inappropriate to teach
managers to manage agents as if they were
employees. Tr. 483:23 - 484:9 (Benusa). However,
mangers were taught from materials that referred to
agents as employees. Pl. Ex. 15,1 6; Tr. 590:6 592:17(Miller); Tr. 1652:6-1655:23 (Shope); Pl. Ex.
339. The managers’ training manuals instructed
managers that they should act as the agents’ bosses;
“tell them what to do, how to do it, and when it
should be done;” show agents that they don’t “have
good answers to key objections;” refuse to “permit any
deviation from what it takes to succeed;” “require
compliance with your directives;” and, require that
their “instructions must be followed.” Pl. Ex. 519-15,
20; Pl. Ex. 543;40; Pl. Ex. 414-42; Pl. Ex. 521-118; Pl.
Ex. 520-144; Pl. Ex. 190-5, 8, 9, 11,; Tr. 1327:161329:13 (Johnston).
Some American Family witnesses testified that
these instructions were a mistake. Tr. 1256:2-6;

70a
1266:1-3 (Steffen); Tr. 483:23-484:9 (Benusa). This
testimony was contradicted by manager testimony,
and American Family corporate testimony, which
verified that all manuals were approved by American
Family, that these techniques and instructions were
taught to every manager in training courses, that
they were reinforced by higher level sales
management at American Family, and that they
were consistently used by American Family
managers. Tr. 289:19-24 (McElroy); Tr. 610:3-10;
611:11-23 (Miller); Tr. 343:11-21 (McElroy); Tr.
1320:22 -1329:12 (Johnston); Tr. 1342:2-3 (Nystrom);
Tr. 1767:2-1768:21, 1776:19-1778:19 (Padgett); Tr.
700:22-701:12 (Jackson). Managers also testified that
the policies taught in these manuals were universal
and consistent policies at American Family for
decades both before and after the publication of the
written manuals, themselves. Tr. 404:25-411:9
(Kaye); Tr. 327:15-335:12 (McElroy); Tr. 604:5-611:23
(Miller); Tr. 1660:11-1661:23 (Shope); Tr. 1337:141338:4 (Nystrom). Mr. Kaye testified that when he
tried to raise the issue of the agent’s possible
misclassification as independent contractors with his
superiors, he was ignored and told to drop it. Tr.
397:11-16, 397:23-398:18 (Kaye).
A former high-level officer testified that the
Company considered the agents to be independent
contractors for IRS purposes only, and that he and
other American Family senior management misled
the agents by telling them they would be independent
contractors for all purposes. Tr. 396:17-399:6 (Kaye).
This was corroborated by other high-level managers,
including Mr. Wunsch, a sales management
development director who put together a District

71a
Manager manual. Tr: 249:3-11 (Wunsch); Tr. 242:4-5,
15-20 (Wunsch); Tr. 197:8-12 (Rider). Mr. Nystrom
testified that his manager told him he was not an
“independent contractor” but more like a franchisee
who has to follow all of the company’s rules,
regulations and procedures, and do exactly what
corporate tells him to do. Tr. 1349:17-1350:1
(Nystrom). Mr. Benusa could not explain why
American Family classified agents as independent
contractors other than it “has always been that way.”
Tr. 469:23-470:12 (Benusa).
The above summary of the evidence presented at
trial is representative, but is not a comprehensive
recitation of all of the relevant evidence presented at
first phase of the trial. Therefore, the trial transcripts
found at ECF #304-314 are incorporated by reference.
FINDINGS OF FACT/CONCLUSIONS OF LAW
The Court makes the following findings of fact
and conclusions of law based upon the evidence
presented at trial:
1. This Court has original jurisdiction under 28
U.S.C. § 1331 because the Plaintiffs’ claims arise
under the Employee Retirement Income Security Act
of 1974 (“ERISA”), 29 U.S.C. § 1001, et seq.
2. The burden of proof rests with plaintiffs to
prove by a preponderance of the evidence that they
were common law employees and not independent
contractors under ERISA.
3. American Family and its agents entered into
Agent Agreements that governed their relationship.

72a
4. The Agreements indicate that the parties
intended for agents to be treated as independent
contractors.
5. Other internal documents including the
District Managers Manual and other training
manuals indicate that American Family expected its
sales managers to exercise control over agents’
methods and manner of performing their services.
6. Under the Darden factors, courts are
instructed to determine “whether the skill [required
of an agent] is an independent discipline (or
profession) that is separate from the business and
could be (or was) learned elsewhere.” Janette v.
American Fidelity Group, Ltd., 298 F. App’x 467, 471
(6th Cir. 2008)(Jannette “held numerous jobs for
various employers doing exactly this kind of work for
more than a decade.”)
7. Insurance agents may be educated, trained,
and licensed prior to being hired by a specific agency.
8. No one can operate as an insurance agent
unless they have been licensed by the state in which
they work.
9. American Family almost always hired
untrained, and often unlicensed, agents and provided
all the training they needed to be an American
Family agent. They provided them all of the training
and tools necessary to become an American Family
agent and run an agency.
10. American Family closely supervised its agents
through a network of sales management employees,
including District Managers who were generally very
involved in the day to day activities of their agents.

73a
American Family’s sales department has one
thousand employees and entire departments that
exist solely to support its 2,800 agents. The managers
are involved in goal setting, creating the agents
business plans, encouraging and directing agents,
and enforcing compliance with these goals and plans.
A manager’s job depends on the results of the agents
and how much they sell.
11. American Family preferred to hire untrained
agents so they could be trained in the “American
Family” way.
12. “[I]f the individual requires substantial
training and supervision, an employee/employer
status is more likely.” Worth v. Tyer, 276 F.3d 249,
263 (7th Cir. 2001).
13. Although it is a consideration, the fact that
agents are licensed by the state and/or certified
through professional agencies, or that they are able
to obtain outside education in their field is not
heavily weighted, as there are many professions
where employees are required or encouraged to have
degrees and/or be certified in their respective areas of
expertise prior to hire (i.e. law, accounting, nursing,
home care, etc.). Further, in this case, the evidence
shows that no such prior training was required prior
to being hired by American Family.
14. Under the specific facts of this case, the
“amount of skill” factor under Darden weighs slightly
in favor of employee status. Although it is possible to
obtain licensing and other skills useful in the job of
an agent prior to or outside of employment at
American Family, and courts have previously held
that insurance agents require the requisite level of

74a
skill to be considered independent contractors, the
evidence in this case shows that American Family
specifically sought out potential agents who were
untrained. The testimony also showed that they
sought untrained potential agents because they
wanted to train them in their own procedures and
perspectives and wanted them to follow the
“American Family” way. Further, there was no
evidence presented that would show that the skills
learned in American Family training were separate
from the business of American Family. If an agent
had worked for a different company prior to being
hired at American Family, they were re-trained in
the ways of American Family agents upon hire. There
was no testimony as to whether skills learned from
American Family translated to work at other
agencies upon separation.
15. The agent’s investment in his or her own
equipment and tools should be considered in relation
to the company’s investment in the overall operation
when looking at the “source of instrumentalities and
tools” factor. Keller v. Miri Microsystems LLC, 781
F.3d 799, 807 (6th Cir. 2015); Ware v. United States,
67 F.3d 574, 577 (6th Cir. 1995).
16. American Family agents paid, among other
things, for their own rent or building purchase,
furniture,
equipment,
marketing,
legal
and
professional services, client lunches/entertainment,
telephone, office supplies, health insurance,
automobile, continuing education, and repairs and
maintenance for their offices.

75a
17. American Family required agents to use their
computers and their software, but charged a monthly
fee for the computer use.
18. American Family provides agents with
software, websites, social media connections, 24 hour
call center support, and sometimes subsidized
marketing, staff, and other expenses of the agents.
19. Agents invest heavily in their offices and
instrumentalities, and claim significant expenses in
their IRS filings. This is weighed against American
Family’s
provision
of
certain
tools
and
instrumentalities which create uniformity among
agencies, its control and supply of the computers and
software essential to the performance of the agent’s
job, and its significant investment in research,
management, and support functions which benefit
both the agent and the company, itself.
20. In this case, the “instrumentalities and tools”
factor under Darden weighs slightly in favor of
independent contractor status.
21. When an agent does not work at offices owned
or controlled by the company and is not subject to
physical supervision in the performance of daily
tasks, this Darden factor weighs in favor of
independent contractor status. Weary v. Cochran,
377 F.3d 522, 527 (6th Cir. 2004); see also Schwieger
v. Farm Bureau Ins. Co., 207 F.3d 480, 485 (8th Cir.
1999).
22. American Family agents each had their own
office building and did not work onsite at American
Family.

76a
23. American Family agents paid the
rent/purchase price and operation costs of their own
offices.
24. American Family agents could not work out of
their homes.
25. American Family retained the right to
approve the location of an agent’s office, although
they did not often exercise this right.
26. American Family managers sometimes came
to agent’s office to inspect the office and oversee the
agent’s work practices.
27. Although American Family retained some
right of control over the location of the work and
maintained some degree of supervision over the
agents despite their off-site location, the “location”
factor under the Darden test weighs moderately in
favor of independent contractor status.
28. The evidence shows, and the parties agree
that the “duration of the relationship” factor under
the Darden test weighs in favor of employee status.
29. Whether American Family has the right to
assign additional projects not directly related to the
sale of insurance products is an[o]ther factor to
consider under Darden. The extent to which the
agents have discretion to accept or reject additional
projects determines whether this factor weighs in
favor of employee or independent contractor status.
30. American Family required agents to provide
sales reports, visit homes, participate in call nights,
do cold calling, conduct personal insurance reviews,
do re-surveys, prepare business plans, service policies

77a
without compensation, and fill out daily activity and
other reports.
31. Agents did not feel that they were able to
refuse to accept these duties.
32. Re-surveys were usually conducted by
American Family employees or third party hires who
were not agents.
33. Agents were sometimes assigned to service
policies that they did not bring in, and for which they
were not compensated.
34. The remaining complained of duties were all
closely associated with their sale of insurance. While
these tasks do not affect the weighting of this factor,
they do provide evidence of a high level of control by
the company over how and when the agents
performed their job of selling insurance.
35. American Family did assign some duties to
agents that were not a part of the sale of policies that
they were required to perform under their Agent
Agreement.
36. The “right to assign additional projects” factor
under the Darden test weighs slightly in favor of
employee status.
37. When the company does not have any
authority or discretion over when or how long an
agent works, this weighs in favor of independent
contractor status. Weary, 377 F.3d at 526.
38. American Family requires its agents to keep
their offices open during regular business hours, and
managers do drop-ins to verify that agents had their
offices open during regular business hours.

78a
39. American Family does not require that an
agent work during all regular business hours, as long
as there is an appointed staff on-site at the office
during those hours.
40. American Family does require agents to work
specific times and places for periodic campaign
drives, mandatory meetings, and call nights. They
have been trained that they have the authority to
enforce participation in these events.
41. American Family managers have the
authority to approve or deny agent vacations, and
have in some instances reprimanded agents for
taking vacation or otherwise being absent from the
office without approval.
42. American Family agents do not punch a clock
or record their time worked.
43. American Family agents are, however,
supposed to file daily activity reports.
44. American Family managers have the final say
over agents’ business plan, including productivity
goals and means of achieving them. This impacts the
agents’ ability to control their own hours.
45. Even agents who did not believe they had to
get approval for vacations notified their managers
when they planned to take vacation.
46. Although agents have some discretion over
when and how long to work,” American Family,
through its managers retains some authority to
regulate these decisions. Therefore, this factor weighs
slightly in favor of employee status.

79a
47. The payment of commissions based on sales,
rather than payment of a set salary supports an
independent contractor relationship. Weary v.
Cochran, 377 F.3d at 527; Ware, 67 F.3d at 577.
48. Agents were paid on a commission basis
based on their sales.
49. Agents were paid a monthly
unrelated to sales while in training.

stipend

50. Agents were sometimes required to provide
services on policies without receiving a commission.
51. Agents were given loans on future
commissions under an Advance Compensation Plan
or Agent Financing Plan. These plans were available
primarily to new agents.
52. The “method of payment” factor weighs in
favor of employee status for plaintiffs for the duration
of their training period only, and weigh s in favor of
independent contractor status for plaintiffs once they
began selling policies out of their own office.
53. When an insurance agent “employed his own
staff at his own expense; had sole discretion in hiring,
firing, and compensation matters; and, withheld and
remitted taxes to the federal government in his
capacity as the employer of his staff members, this
weighs in favor of independent contractor status.
Weary, 377 F.3d at 527.
54. Independent contractor status is not
diminished when a company retains the right to
impose qualification standards on an agent’s staff, so
long as the company didn’t dictate who agent could
hire. Chai v. Allstate Ins. Co., No. C-1-03-566, 2005
WL 6778901, at *7 (S.D. Ohio Apr. 28, 2005).

80a
55. American Family agents had primary
authority to hire their own staff and had discretion in
who they would hire.
56. The agents were responsible for paying their
own staff, determining and paying for any benefits
and taxes associated with that staff, and determining
whether to classify their staff as employees or
independent contractors.
57. Some agents employed family members as
staff.
58. Agents had the option not to hire any staff,
but it would have been extremely difficult, if not
impossible, to meet required production requirements
without the assistance of staff.
59. American Family imposes qualifications on
appointed agency staff, including state licensure,
clean driving records, education levels, credit history,
and minimum income to debt ratios.
60. American Family did not provide computer
access to any non-approved appointed agency staff.
61. American Family required agency staff to
agree to a life-time non-solicitation agreement.
62. American Family advertised for, recruited
and interviewed potential agency staff and provided
“pre-approved” candidates from which the agents
could select their staff.
63. Agents were not required to hire these prescreened candidates.
64. American Family retained the right to fire
any agency staff, appointed or non-appointed, who
did not live up the American Family Code of Conduct.

81a
65. Agents did not have sole discretion in hiring
and firing their staff.
66. Agents did have primary authority to hire
and fire and their staff.
67. Agents had sole discretion in staff
compensation matters, and the sole responsibility to
withheld and remitting taxes to the federal
government as the employers of their staff.
68. American Family managers were evaluated
on the number of staff employed by their agents, and
would sometimes offer monetary subsidies to agents
to hire more staff.
69. American Family retained some authority to
approve or disapprove of both appointed and nonappointed agency staff selections, above and beyond
the imposition of relevant qualification requirements
on appointed staff.
70. American Family retained the right to fire
agency staff, although this right was not widely
exercised.
71. Although American Family retained some
right to override an agent’s hiring and firing
decisions, on balance, agents had primary authority
over hiring and paying their assistants.
72. The “party’s role in hiring and paying
assistants” factor under Darden is neutral.
73. “The more integral the worker’s services are
to the business, then the more likely it is that the
parties have an employer-employee relationship.”
Keller v. Miri Microsystems LLC, 781 F.3d 799, 807
(6th Cir. 2015).

82a
74. American Family could not exist as a
company without the sales generated by their agents.
75. The parties agree, and the evidence supports
a finding that the work performed by agents is not
only an integral part of American’ Family’s regular
business, but is part and parcel of its core function,
which is to sell and service insurance policies.
76. In this case, the degree to which the “work is
part of the regular business of the hiring party”
factor under Darden weighs heavily in favor of
employee status.
77. If American Family provided agents with
regular employee benefits, or the same benefits it
provided to its employees, it would factor in favor of
employee rather than independent contractor status.
See, e.g., Wolcott v. Nationwide Mutual Ins. Co., 884
F.2d 245, 251 (6th Cir. 1989).
78. American Family did not provide agents with
vacation pay, holiday pay, sick pay, or paid time off.
79. Vacation pay, holiday pay, sick pay, and other
paid time off are regular employee benefits, at least
some of which were provided to American Family’s
employees.
80. American Family agents are not eligible for
the pension and retirement plans offered to American
Family employees.
81. American Family agents are required to
obtain, maintain, and pay for their own health
insurance.
82. American Family did offer its agents a
retirement or pension plan in the form of extended

83a
earnings. Agents were automatically enrolled in
these plans, did not contribute to these plans, and
received increasing benefits with increasing years of
service.
83. American Family provides a death benefit to
agents.
84. American Family provides life insurance to
some agents, but others have to pay for their own.
85. American Family did not offer its agents the
same benefits it provided to its employees.
86. American Family did not provide its agents
with all of the regular employee benefits.
87. American Family did provide retirement, and
sometimes life insurance, benefits that would be
considered “regular employee benefits.”
88. The “provision of employee benefits” under
Darden weighs slightly in favor of independent
contractor status.
89. There is no dispute that American Family
treated their agents as independent contractors for
tax purposes, and that agents filed their taxes as
independent contractors.
This weighs in favor of independent contractor
status under Darden.
90. The Darden factors are almost evenly split
between favoring employee status and favoring
independent contractor status.
91. The method of payment (following the
training period), and tax treatment clearly favor
independent contractor status. The duration of the

84a
relationship, and the fact that the agents’ work is the
core business of the company clearly favor employee
status. All other factors contain a mix of
characteristics between the two designations.
92. American Family, either directly or through
its managers, appeared to retain at least some degree
of control, albeit sometimes slight, over their agents’
decisions in nearly every category. When an agent
met American Family standards and employed
American Family techniques, this control was not
exercised. However, if the agent did not agree with or
follow American Family directives and suggestions,
control would be exercised by most managers in the
form of reprimands, threats, and potential
termination.
93. Darden factors are not exclusive in the
determination of employee versus independent
contractor status.
94. “The ‘employer’s ability to control job
performance and the employment opportunities of
the aggrieved individual’ are the most important of
the many factors to be considered.” Marie v. Am. Red
Cross, 771 F.3d 344, 356 (6th Cir. 2014)(quoting
Janette v. Am. Fid. Grp., Ltd., 298 F. App’x 467, 472
(6th Cir. 2008) and citing Simpson v. Ernst & Young,
100 F.3d 436, 442 (6th Cir. 1997); Trs. Of the

Resilient Floor Decorators Ins. Fund v. A & M
Installations, Inc., 395 F.3d 244, 249 (6th Cir. 2005);
and Johnson v. City of Saline, 151 F.3d 564, 568 (6th
Cir. 1998)).

95. American Family agents did not own a book of
business.

85a
96. American Family agents did not own any
policies.
97. American Family could and did unilaterally
reassign policies brought in by one agent, to other
agents.
98. American Family could require agents to
service policies that they did not initiate without
compensation.
99. American Family did not allow agents to sell
insurance from any other companies, even when
American Family did not carry the type of coverage
offered by a competitor, except through approved
partner agencies with a financial connection to
American Family.
100. American Family actively discouraged and
in some cases prohibited agents from taking on other
employment even if it was unrelated to insurance
sales.
101. American Family required its agents to sign
a one year non-compete agreement effective upon
termination. American Family required agency staff
to sign a lifetime noncompete agreement prohibiting
any contact with American Family agency clients.
102. American Family controlled the employment
opportunities of its agents.
103. American Family trained its sales managers
to treat agents in the same manner as they would
treat employees.
104. American Family trained its sales managers
to believe that they were the agents’ bosses and had

86a
the authority to demand compliance from agents
whenever an agent disagreed with them.
105. American Family held their sales managers
liable for any perceived shortcomings of their agents.
106. American Family training manuals actually
refer to agents as “employees.”
107. These manuals and training methods were
reviewed and approved by the Company. They were
not mistakes or aberrations, but documented the
approach American Family wanted their managers to
take when managing agents.
108. Managers were not instructed to treat
agents as independent contractors.
109. Some, but not all, managers considered
agents to be independent contractors “for tax
purposes only.”
110. American Family managers, consistent with
their training, acted as if they had the right to control
the manner and means by which their agents sold
and serviced insurance policies. They believed that
they had the authority to reprimand and terminate
(or at least threaten termination) in order to require
compliance when an agent disagreed with their
decisions or requests.
111. Not all managers exercised this right, but
many did.
112. The employer does not have to exercise its
right to direct or control the manner and means of
work, if it retains the right to do so. See, Peno
Trucking, Inc. V. C.I.R., 296 F.App’x 449, 456 (6th
Cir. 2008); N.L.R.B. v. Cement Transp., Inc., 490

87a
F.2d 1024, 1027 (6th Cir. 1974)(“It is the right to
control, not its exercise, that determines an employee
relationship.”).
113. Although the Sixth Circuit, along with
several others, has found insurance agents to be
independent contractors and not employees for the
purpose of federal employment law, none of the
factual scenarios presented in any of the cited cases
show retention of the same level and breadth of
control by the Company that was evidenced in this
case. Further, Defendants have not cited any Sixth
Circuit cases involving American Family agents.
114. The advisory jury in this case unanimously
found that Plaintiffs proved by a preponderance of
the evidence that they are employees of Defendant
American Family.
115. It is within the trial court’s discretion to
accept or reject the verdict, or the interrogatory
responses of an advisory jury. Hyde Properties v.
McCoy, 507 F.2d 301, 306 (6th Cir. 1974); Morelock v.
NCR Corp., 546 F.2d 682, 689 (6th Cir. 1976),
vacated on other grounds, 435 U.S. 911 (1978); see
also Fed. R. Civ. P. 52(a)(1).
116. This Court finds that based on all of the
evidence and arguments presented, that the jury’s
response to the interrogatory was consistent with the
evidence and the law.
117. This Court finds that American Family
agents are and were employees for purposes of
ERISA during the class period.

88a
CONCLUSION
For the foregoing reasons this Court finds, that
although the retention and exercise of control of the
means and manner of the agents’ service was not
technically allowed under the terms of the Agency
Agreement, American Family did expect its
managers to exercise such control whenever
necessary to achieve compliance with Company goals
and standards. American Family trained its
managers to exercise control over the means and
manner of agents’ sales and service duties when the
company deemed it necessary, and reprimanded
managers who did not exercise such control when the
Company deemed it beneficial to do so. Consequently,
at least some managers did, in fact, exercise a high
level of control over some of their agents. The degree
of control managers were encouraged to exercise was
inconsistent with independent contractor status and
was more in line with the level of control a manger
would be expected to exert over an employee. This,
along with the evidence related to the other factors
set forth above, supports a finding that the American
Family agents defined in the class description should
have been classified as employees and not
independent contractors. Therefore, the Court finds
that the class Plaintiffs in this case were employees
of American Family during the relevant class period.
The Court finds, pursuant to 28 U.S.C. § 1292(b),
that an interlocutory appeal may materially advance
the ultimate termination of the litigation because:
(1) there was evidence supporting both sides in this
case; (2) prior case law has been nearly unanimous in
finding that insurance agents generally are to be
classified as independent contractors; (3) the

89a
repercussions of this finding are so far-reaching; and,
(4) the resolution of damages will be unusually
complicated. Therefore, the Court authorizes the
parties to take an interlocutory appeal of this Order,
pursuant to 28 U.S.C. § 1292(a)(1). This case shall be
stayed pending the resolution of any such appeal.
The parties shall notify the Court within ten days
whether an appeal was, in fact, filed. IT IS SO
ORDERED.
/s/ Donald C. Nugent
Judge Donald C. Nugent
United States District Judge
DATED: July 31, 2017

90a
APPENDIX C
No. 17-4125
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
FILED
Mar 25, 2019
Deborah S. Hung, Clerk

WALID JAMMAL; KATHLLEEN
TUERSLEY; CINDA J. DURACHINSKY,
NATHAN GARRETT,

Plaintiffs-Appellees,

ORDER

v.
AMERICAN FAMILY INSURANCE
COMPANY, ET AL.,

Defendants-Appellants.
BEFORE: BOGGS,
Circuit Judges.

CLAY,

and

ROGERS,

The court received a petition for rehearing en
banc. The original panel has reviewed the petition for
rehearing and concludes that the issues raised in the
petition were fully considered upon the original
submission and decision of the case. The petition
then was circulated to the full court. No judge has
requested a vote on the suggestion for rehearing en
banc.

91a
Therefore, the petition is denied. Judge Clay
would grant rehearing for the reasons stated in his
dissent.
ENTERED BY ORDER OF THE COURT

Deborah S. Hunt

Deborah S. Hunt, Clerk

92a
APPENDIX D
Title 29. Labor
Chapter 18. Employee Retirement Income Security
Program
29 U.S.C. A. § 1002
§ 1002. Definitions
For purposes of this subchapter:
(1) The terms “employee welfare benefit plan” and
“welfare plan” mean any plan, fund, or program
which was heretofore or is hereafter established or
maintained by an employer or by an employee
organization, or by both, to the extent that such plan,
fund, or program was established or is maintained for
the purpose of providing for its participants or their
beneficiaries, through the purchase of insurance or
otherwise, (A) medical, surgical, or hospital care or
benefits, or benefits in the event of sickness, accident,
disability, death or unemployment, or vacation
benefits, apprenticeship or other training programs,
or day care centers, scholarship funds, or prepaid
legal services, or (B) any benefit described in section
186(c) of this title (other than pensions on retirement
or death, and insurance to provide such pensions).
(2)(A) Except as provided in subparagraph (B), the
terms “employee pension benefit plan” and “pension
plan” mean any plan, fund, or program which was
heretofore or is hereafter established or maintained
by an employer or by an employee organization, or by
both, to the extent that by its express terms or as a
result of surrounding circumstances such plan, fund,
or program-(i) provides retirement income to employees, or

93a
(ii) results in a deferral of income by employees
for periods extending to the termination of
covered employment or beyond,
regardless of the method of calculating the
contributions made to the plan, the method of
calculating the benefits under the plan or the method
of distributing benefits from the plan. A distribution
from a plan, fund, or program shall not be treated as
made in a form other than retirement income or as a
distribution prior to termination of covered
employment solely because such distribution is made
to an employee who has attained age 62 and who is
not separated from employment at the time of such
distribution.
*

*

*

(3) The term “employee benefit plan” or “plan” means
an employee welfare benefit plan or an employee
pension benefit plan or a plan which is both an
employee welfare benefit plan and an employee
pension benefit plan.
*

*

*

(6) The term “employee” means any individual
employed by an employer.
(7) The term “participant” means any employee or
former employee of an employer, or any member or
former member of an employee organization, who is
or may become eligible to receive a benefit of any type
from an employee benefit plan which covers
employees of such employer or members of such
organization, or whose beneficiaries may be eligible
to receive any such benefit.
*

*

*

94a
APPENDIX E
Title 29. Labor
Chapter 18. Employee Retirement Income Security
Program
Subchapter I. Protection of Employee Benefit
Rights
Subtitle B. Regulatory Provisions
Part 5. Administration and Enforcement
29 U.S.C.A. § 1132
§ 1132. Civil enforcement
(a) Persons empowered to bring a civil action
A civil action may be brought-(1) by a participant or beneficiary-(A) for the relief provided for in subsection (c)
of this section, or
(B) to recover benefits due to him under the
terms of his plan, to enforce his rights under
the terms of the plan, or to clarify his rights
to future benefits under the terms of the plan;
*

*

*

(3) by a participant, beneficiary, or fiduciary (A) to
enjoin any act or practice which violates any
provision of this subchapter or the terms of the plan,
or (B) to obtain other appropriate equitable relief (i)
to redress such violations or (ii) to enforce any
provisions of this subchapter or the terms of the plan;
*

*

*

